<html>
<title> - OCCUPATIONAL AND ENVIRONMENTAL HEALTH SURVEILLANCE OF DEPLOYED FORCES: TRACKING TOXIC CASUALTIES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




OCCUPATIONAL AND ENVIRONMENTAL HEALTH SURVEILLANCE OF DEPLOYED FORCES: 
                       TRACKING TOXIC CASUALTIES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  EMERGING THREATS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 19, 2005

                               __________

                           Serial No. 109-120

                               __________

       Printed for the use of the Committee on Government Reform







  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                                 ______


                     U.S. GOVERNMENT PRINTING OFFICE
26-238 PDF                 WASHINGTON : 2006
________________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

Subcommittee on National Security, Emerging Threats, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
KENNY MARCHANT, Texas                DENNIS J. KUCINICH, Ohio
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         BERNARD SANDERS, Vermont
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           CHRIS VAN HOLLEN, Maryland
TODD RUSSELL PLATTS, Pennsylvania    LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. DUTCH RUPPERSBERGER, Maryland
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
             Kristine Fiorentino, Professional Staff Member
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 19, 2005....................................     1
Statement of:
    Kilpatrick, Dr. Michael, Deputy Director of the Deployment 
      Health Support Directorate, Department of Defense, 
      accompanied by Colonel John Ciesla, Chief of Staff, U.S. 
      Army Center for Health Promotion and Preventive Medicine 
      [CHPPM]; and Dr. Susan Mather, Chief Officer, Public Health 
      and Environmental Hazards, Veterans Health Administration, 
      Department of Veterans Affairs, accompanied by Dr. Mark 
      Brown, Director, Environmental Agents Service, Department 
      of Veterans Affairs........................................   140
        Kilpatrick, Dr. Michael..................................   140
        Mather, Dr. Susan........................................   161
    La Morte, Brian Scott, Company Sergeant Major, B Company, 
      Third Battalion, 20th Special Forces Group (Airborne), 
      North Carolina Army National Guard; Raymond Ramos, retired 
      Staff Sergeant, 442nd Military Police Company, New York 
      National Guard; David Chasteen, Operation Iraqi Freedom 
      veteran, associate director of Operation Truth; and Marcia 
      Crosse, Ph.D., Director, Health Care, Government 
      Accountability Office......................................    41
        Chasteen, David..........................................    85
        Crosse, Marcia...........................................    89
        La Morte, Brian Scott....................................    41
        Ramos, Raymond...........................................    55
Letters, statements, etc., submitted for the record by:
    Chasteen, David, Operation Iraqi Freedom veteran, associate 
      director of Operation Truth, prepared statement of.........    87
    Crosse, Marcia, Ph.D., Director, Health Care, Government 
      Accountability Office:
        Information concerning programs..........................   136
        Prepared statement of....................................    91
    Kilpatrick, Dr. Michael, Deputy Director of the Deployment 
      Health Support Directorate, Department of Defense, prepared 
      statement of...............................................   143
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................   121
    La Morte, Brian Scott, Company Sergeant Major, B Company, 
      Third Battalion, 20th Special Forces Group (Airborne), 
      North Carolina Army National Guard, prepared statement of..    45
    Mather, Dr. Susan, Chief Officer, Public Health and 
      Environmental Hazards, Veterans Health Administration, 
      Department of Veterans Affairs:
        Information pieces.......................................   163
        Prepared statement of....................................   183
    Ramos, Raymond, retired Staff Sergeant, 442nd Military Police 
      Company, New York National Guard, prepared statement of....    58
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
        Articles and materials submitted by Susan Zimet, Ulster 
          County New York legislator, and the Desert Storm Battle 
          Registry...............................................     7
        Prepared statement of....................................     3

 
OCCUPATIONAL AND ENVIRONMENTAL HEALTH SURVEILLANCE OF DEPLOYED FORCES: 
                       TRACKING TOXIC CASUALTIES

                              ----------                              


                         TUESDAY, JULY 19, 2005

                  House of Representatives,
       Subcommittee on National Security, Emerging 
              Threats, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Duncan, Turner, Dent, and 
Kucinich.
    Staff present: Lawrence Halloran, staff director and 
counsel; R. Nicholas Palarino, Ph.D., senior policy advisor; 
Robert A. Briggs, clerk; Kristine Fiorentino, professional 
staff member; Erick Lynch and Sam Raymond, interns; Andrew Su, 
minority professional staff member; and Earley Green, minority 
chief clerk.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats, and International 
Relations hearing entitled, ``Occupational and Environmental 
Health Surveillance of Deployed Forces, Tracking Toxic 
Casualties,'' is called to order.
    Air Force Major Michael W. Donnelly died on June 30th. His 
testimony before this subcommittee 8 years ago helped persuade 
a skeptical Pentagon and Department of Veterans Affairs [VA], 
that wartime exposures caused or amplified subsequent 
illnesses. His decade-long struggle against the ravaging 
effects of Amyotrophic Lateral Sclerosis [ALS], gave heroic 
witness to the reality of toxic casualties. Our work on 
deployment health will continue to be guided by his indomitable 
spirit.
    After the 1991 war in the Persian Gulf, veterans suffering 
a variety of unfamiliar syndromes faced daunting official 
resistance to evidence linking multiple low-level toxic 
exposures to subsequent chronic ill health. Limited 
environmental sampling, poor troop location data and glaring 
incomplete medical recordkeeping all blocked efforts to reach 
epidemiological or clinical conclusions about wartime 
exposures.
    Since then, the Department of Defense [DOD], has become 
much more attuned to the environmental and occupational risks 
of the deployment workplace. Lessons learned in the first Gulf 
war are being applied to minimize preventable exposures and 
illness. Air, soil and water testing is more prevalent. 
Baseline routine and incidental driven surveillance reports are 
being directed to a central repository. Some information on 
possible environmental exposures is finding its way into 
individual medical records. But as we will hear this morning, 
these promising efforts do not yet comprise the robust, 
consistent and sustained deployment health program our forces 
need and deserve.
    Gathering more data on environmental and occupational risk 
is only the first and perhaps the easiest step. It will be of 
limited value to past, current and future service members 
unless DOD and VA can standardize, analyze and use exposure 
data to better inform research agendas and compensation 
decisions.
    At the subcommittee's request, the Government 
Accountability Office [GAO], examined implementation of DOD's 
policies on environmental health surveillance. In a new study 
released today, GAO reports finding inconsistencies between the 
military services and data collection methods. They found 
variable levels of training and expertise among those 
responsible for environmental monitoring.
    While some reports are flowing to a central collection 
point, the data integrator, the Army's Center for Health 
Promotion and Preventative Medicine, does not know how many 
reports to expect or how many might be late or missing at any 
given time. Troop location data needed to link individuals to 
individual risks is still unreliable or unavailable. 
Information on specific sites is often classified, putting 
critical data behind the reach of most clinicians and 
researchers.
    These findings frame our discussion of current deployment 
health surveillance activities, and we appreciate the work of 
the GAO team on these important issues. We also value the time, 
expertise and dedication of our witnesses from Department of 
Defense and Veterans Affairs. But we believe, and they agree, 
the first voices we need to hear today belong to veterans, 
those who lived, worked and faced the risk of toxic harm in 
Afghanistan and Iraq.
    In this room, in 1997, Major Donnelly described the pain 
and frustration caused by official inability or unwillingness 
to connect his rare illness with his military service. A once 
robust fighter pilot sat before us in a wheelchair. His body 
racked by the effects of the disease. His wife and father sat 
next to him to help interpret. But when asked if he would go to 
war against knowing what would befall him, Michael Donnelly did 
not hesitate 1 second before saying, in a whisper, yes.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] T6238.001
    
    [GRAPHIC] [TIFF OMITTED] T6238.002
    
    Mr. Shays. The Chair would now recognize Mr. Duncan.
    Mr. Duncan. Mr. Dent was here before me, if he wants to 
make a statement.
    Mr. Shays. No, with the gavel, I take the senior member. We 
will all get our chances.
    Mr. Duncan. Thank you very much, Mr. Chairman. Once again, 
you have called a hearing on a very, very important topic.
    Unfortunately, due to previously scheduled meetings, I 
won't be able to stay for much of it. However, my staff did 
tell my VA representative yesterday of something that I have 
been wondering about for several years now, and perhaps some of 
the witnesses could help answer some of these questions when 
they testify, and of course, we all know that for several years 
people at the top levels of the Defense Department thought that 
some or many of the illnesses that some of the Gulf war, first 
Gulf war, veterans were complaining of were psychosomatic or 
psychological and not related to their military service. And we 
all know about the difficult time that many of these soldiers 
had in trying to tie their illnesses into their service.
    What raised my curiosity was the fact that we heard almost 
no complaints or similarities of symptoms from military 
personnel from other countries who had served at the same time 
and in the same theaters. And it raised a question in the mind 
of many, were these illnesses being claimed primarily because 
of our VA system and because there could be a possible 
compensation, or--and because, in the other countries where 
there was no similar VA compensation program set up, soldiers 
were not claiming these same types of illness? Or could it have 
been because we were giving our soldiers some type of 
vaccinations that had something in them that was causing 
problems that weren't being caused in soldiers from other 
countries?
    So I think those are some things that we need to look into 
and see whether these illnesses, there still is apparently a 
serious question as to whether some of these illnesses are 
related to the military or whether there is some other cause, 
psychological or a vaccination or what the cause might be.
    But I thank you for calling this hearing.
    Mr. Shays. I thank the gentleman.
    Mr. Dent.
    Mr. Dent. Thank you.
    Thank you, Mr. Chairman, for conducting this hearing.
    I look forward to receiving your testimony. And having seen 
a family member die of ALS, I know that issue is not 
psychological. And I just look forward to hearing your 
testimony about the effects that our service personnel have 
experienced while deployed.
    So thank you for holding this hearing, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    And as the former vice chair of the committee, Mr. Turner.
    Mr. Turner. Mr. Chairman, I want to thank you for 
continuing your effort to delve into the issue of the health 
and safety of our men and women in uniform. Your efforts have 
produced real results that we want to make certain that, 
through accountability, are implemented. The benchmarking or 
needing to know where our men and women in uniform begin and 
then the environmental aspects that they are exposed to and the 
effects upon their health is incredibly important not only for 
us to just determine what happened but also to plan so that we 
can effectively protect people in the future. And so your work 
here is very important, and I appreciate it.
    Mr. Shays. I thank the gentleman.
    Before I recognize our witnesses, I ask unanimous consent 
that all members of the subcommittee be permitted to place an 
opening statement in the record and that the record remain open 
for 3 days for that purpose. Without objection, so ordered.
    I ask further unanimous consent that all witnesses be able 
to submit their written statements in the record. Without 
objection, so ordered.
    I even ask for unanimous consent to insert into the record 
articles and other materials submitted by Susan Zimet, Ulster 
County New York legislator, and the Desert Storm Battle 
Registry submitted as well. Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6238.003
    
    [GRAPHIC] [TIFF OMITTED] T6238.004
    
    [GRAPHIC] [TIFF OMITTED] T6238.005
    
    [GRAPHIC] [TIFF OMITTED] T6238.006
    
    [GRAPHIC] [TIFF OMITTED] T6238.007
    
    [GRAPHIC] [TIFF OMITTED] T6238.008
    
    [GRAPHIC] [TIFF OMITTED] T6238.009
    
    [GRAPHIC] [TIFF OMITTED] T6238.010
    
    [GRAPHIC] [TIFF OMITTED] T6238.011
    
    [GRAPHIC] [TIFF OMITTED] T6238.012
    
    [GRAPHIC] [TIFF OMITTED] T6238.013
    
    [GRAPHIC] [TIFF OMITTED] T6238.014
    
    [GRAPHIC] [TIFF OMITTED] T6238.015
    
    [GRAPHIC] [TIFF OMITTED] T6238.016
    
    [GRAPHIC] [TIFF OMITTED] T6238.017
    
    [GRAPHIC] [TIFF OMITTED] T6238.018
    
    [GRAPHIC] [TIFF OMITTED] T6238.019
    
    [GRAPHIC] [TIFF OMITTED] T6238.020
    
    [GRAPHIC] [TIFF OMITTED] T6238.021
    
    [GRAPHIC] [TIFF OMITTED] T6238.022
    
    [GRAPHIC] [TIFF OMITTED] T6238.023
    
    [GRAPHIC] [TIFF OMITTED] T6238.024
    
    [GRAPHIC] [TIFF OMITTED] T6238.025
    
    [GRAPHIC] [TIFF OMITTED] T6238.026
    
    [GRAPHIC] [TIFF OMITTED] T6238.027
    
    [GRAPHIC] [TIFF OMITTED] T6238.028
    
    [GRAPHIC] [TIFF OMITTED] T6238.029
    
    [GRAPHIC] [TIFF OMITTED] T6238.030
    
    [GRAPHIC] [TIFF OMITTED] T6238.031
    
    [GRAPHIC] [TIFF OMITTED] T6238.032
    
    [GRAPHIC] [TIFF OMITTED] T6238.033
    
    [GRAPHIC] [TIFF OMITTED] T6238.034
    
    [GRAPHIC] [TIFF OMITTED] T6238.035
    
    [GRAPHIC] [TIFF OMITTED] T6238.036
    
    Mr. Shays. We have two panels today. Let me thank our 
Government officials very much for appreciating the need to 
hear from our first panel.
    We are reversing the order, in other words. Government is 
going second. In this case, we are listening to our second 
panel first and that is: Mr. Brian Scott La Morte, a company 
sergeant major, B Company, Third Battalion, 20th Special Forces 
Group, North Carolina Army National Guard; Mr. Raymond Ramos, 
retired staff sergeant, 442nd Military Police Company, New York 
National Guard; Mr. David Chasteen, Operation Iraqi Freedom 
veteran, associate director of Operation Truth; and Dr. Marcia 
Crosse, director, Health Care, Government Accountability 
Office.
    Our second panel will follow. At this time, gentlemen, will 
you rise so I can swear you in? And lady.
    Raise your right hands.
    [Witnesses sworn.]
    Mr. Shays. For the record, our witnesses have responded in 
the affirmative, and now when the other two guests speak, we 
will make sure our recorder has their names, and we can 
identify. Thank you.
    Sergeant Major La Morte, you're on. What we do is we do 5 
minutes. We roll it over a little bit. But we like you to be as 
close to the 5 minutes as you can be.

 STATEMENTS OF BRIAN SCOTT LA MORTE, COMPANY SERGEANT MAJOR, B 
COMPANY, THIRD BATTALION, 20TH SPECIAL FORCES GROUP (AIRBORNE), 
  NORTH CAROLINA ARMY NATIONAL GUARD; RAYMOND RAMOS, RETIRED 
    STAFF SERGEANT, 442ND MILITARY POLICE COMPANY, NEW YORK 
    NATIONAL GUARD; DAVID CHASTEEN, OPERATION IRAQI FREEDOM 
  VETERAN, ASSOCIATE DIRECTOR OF OPERATION TRUTH; AND MARCIA 
CROSSE, Ph.D., DIRECTOR, HEALTH CARE, GOVERNMENT ACCOUNTABILITY 
                             OFFICE

               STATEMENT OF BRIAN SCOTT LA MORTE

    Sergeant Major La Morte. I would like to thank the 
Honorable Christopher Shays and the fellow members of the 
subcommittee.
    It is an honor for me to testify on behalf of myself and 
the fellow service members and the soldiers that I lead. I am 
Sergeant Major Brian Scott La Morte, and I am the Company 
Sergeant Major in the National Guard Special Forces Unit. I was 
deployed to Kandahar Airfield in Afghanistan in April 2002 with 
the Advance Party of the Second Battalion, Third Special Forces 
Group. The first mission tasked to me was to secure, clean up 
and improve the living conditions at the Combined Joint Special 
Operations Task Force Afghanistan, CJSOTFA, I was working at 
the Advanced Operation Base North located in Bagram 
Afghanistan.
    During my initial pre-mission planning trip, I was able to 
observe living conditions of team safe houses located on the 
Pakistani border as well as OAB North.
    After that mission, I was living at Kandahar Airfield for 
most of my duration in the theater. I witnessed the airfield 
from April 2002 through October 2002. While there was great 
improvement made during that time in the country, the base 
still had a long way to go.
    While I was not included in the first contact of the 
Afghanistan Campaign, I know the nature of war, and death and 
destruction are norms for the daily contact. The amount of 
vehicles that were destroyed along with the human carnage was 
unheard of by so few of our ground forces. Today's military is 
capable of enormous amounts of destruction with our advanced 
firepower that is on call from the Navy and Air Force, from 
2,000-pound laser-guided bombs, 30-millimeter depleted uranium 
tank-busting rounds to conventional explosives used to destroy 
tons of recovered Taliban and Al Qaeda material munitions on a 
daily basis. The destruction of cached material and explosives 
led to many fires that burned for countless days unattended. As 
the Taliban moved out of their bases as fast as they could, 
they left many tons of captured Soviet and Afghani equipment 
hidden or scattered about.
    One such example is enclosed in the picture of my report of 
some of over 436 1,100-pound aerial drop-off bombs of different 
types that the Taliban had tried to bury in the desert to hide 
from the advancing Coalition Forces moving into the Kandahar 
region.
    Here is a prime example of the mistakes that we have made 
in the past two conflicts, Desert Storm and Operation Enduring 
Freedom. The next two pictures are from the same cache that 
showed buried munitions that were never identified properly. 
Like the explosion in Desert Storm, the ammunition depot that 
contained chemical weapons which were never identified until 
after the improper destruction, we face a similar chance to do 
the same again. I reminded the EOD officer in charge of the 
necessity of identifying all the weapons before destroying the 
cache. He felt it more important to destroy the cache in place 
as is rather than exposing his troops to possible booby traps. 
Remember that EOD personnel had been killed 6 months 
beforehand. I, again, protested to him that there might be 
chemical or nuclear weapons, and they should be ID'd first.
    In the pictures, I have arrows identifying where the mounds 
were buried, where the weapons were buried underneath. And the 
picture on the right had no explosives placed on the cache, on 
that strip of munitions.
    If the mound had contained a chemical weapon, EOD felt it 
would burn up in the fire ball following the blast. If it were 
nuclear, it would be ruined beyond use. My point to the colonel 
is, it is a weapon of information for our side. It was a Soviet 
doctrine to carry nuclear and chemical weapons to the 
battlefield front.
    I found possible chemical weapons in the barren waste land, 
and no one wanted to admit the possibility that chemical 
weapons were in Afghanistan. It seemed to me, if they had been 
found, the rounds would have caused more complications, and it 
was better to be ignorant of the fact than to deal with them.
    The conditions of the Kandahar Airfield in April 2002 was 
showing signs of becoming organized. The Special Forces 
compound which housed Forward Operating Base 32 under 
Lieutenant Colonel Sherwood was located in the middle of the 
base. Directly behind their motor pool was a trash dump that 
was pushed out of the way to make room for more troops. The 
trash dump contained everything from human bones to armored 
vehicles to airplanes and helicopters out of use.
    The entire time I was in the area, the dump was on fire. 
Smoke from burning rubber, oil and wood drifted across the 
base. The smell was incredible, putrid. I could not think of a 
better way to describe it. I was conscious of the smoke and 
wore a rag over my face when it was really bad. Was there 
anything that could be done? Perhaps fighting the fire would 
have been a start, but it was not raging out of control, just a 
smoldering smudge pot that was more of a nuisance than anything 
else.
    By the time I had left, the 733rd Facility Engineer Team 
was establishing a good working solution to the HAZMAT 
environment at Kandahar. I have an attached article there from 
the Engineer magazine.
    My time at the Advanced Operation Base in Bagram, 
Afghanistan, May to July 2002, was spent cleaning up after the 
Taliban, Fifth Special Forces Group and Third Battalion SFG. 
The building we had occupied had been damaged at some point in 
the war. Possible mortar attacks had left large holes in the 
roof and no windows in the building. Luckily, it never seemed 
to rain while I was there. The dust had free reign and was in 
everything in the building. The dust was so fine that if you 
opened plastic wrapping on a CD container, there was dirt 
inside the CD container already.
    The roof was made of tile shingles, and they were made of 
material containing asbestos. Tile from the roof was 
everywhere. We had moved most of the tiles that were loosened 
to the ground before finding out we had asbestos in them. The 
facility improvement officer came to our compound 1 day to 
announce that the roof would be replaced by a local contractor. 
We had to supply the security detail while they worked. The 
roof was dismantled and trucked away to dump outside the front 
gate. Daily, the contractor dropped tiles down into the living 
area and kitchen area of the AOB. We tried our best to keep 
them from doing so, but they found ways to avoid walking to the 
side of the roof where the truck was parked if they didn't have 
to.
    Safe houses in the area ran far and wide, from neat and 
efficient----
    Mr. Shays. Sergeant Major La Morte, I am going to ask you 
to kind of summarize.
    Sergeant Major La Morte. Well, you have my written 
statement.
    In summary, sir, I would like to say that we never, as one 
of the first Guard units in theater, when we returned we were 
never properly tested for heavy metals or asbestos or nerve 
agents, which we identified as being in the area thereof. 
Taranac Farms came up hot for nerve agents and blood agents. 
But that report was classified secret, so I cannot put that in 
my medical records. Nor do I have access to that report any 
longer.
    There are 67 people deployed to that theater in my company 
that were never tested for any of those. The DMOB station 
glanced over records. I was injured. I broke my back and my 
leg, continued to fight for 7 months. And when I came home, the 
doctor there just glanced through my report and never mentioned 
that. I had to bring it to his attention that I had been 
injured and exposed to dust and the asbestos and nerve agents. 
I had a persistent cough when I came back. He said it was 
normal for the people in our area, not to worry about it. That 
is easy for him to say. I still have a persistent cough. And it 
needs to be identified.
    I lost a soldier when we returned to self-inflicted wounds. 
We are not sure if it is the drugs that we were on. I was in 
that group of SF guys that came home to some violent 
homecomings.
    I haven't had too many more problems after that. I had a 
couple people who are depressed. And I do believe it is due to 
the drug mefloquine that we were taking.
    [The prepared statement of Sergeant Major La Morte 
follows:]
[GRAPHIC] [TIFF OMITTED] T6238.037

[GRAPHIC] [TIFF OMITTED] T6238.038

[GRAPHIC] [TIFF OMITTED] T6238.039

[GRAPHIC] [TIFF OMITTED] T6238.040

[GRAPHIC] [TIFF OMITTED] T6238.041

[GRAPHIC] [TIFF OMITTED] T6238.042

[GRAPHIC] [TIFF OMITTED] T6238.043

[GRAPHIC] [TIFF OMITTED] T6238.044

[GRAPHIC] [TIFF OMITTED] T6238.045

[GRAPHIC] [TIFF OMITTED] T6238.046

    Mr. Shays. Thank you very much.
    And by the way, your statement was very well organized and 
very helpful to the subcommittee. So we have that as well.
    Sergeant Major La Morte. Thank you.
    Mr. Shays. Thank you.
    Staff Sergeant Ramos.
    Staff Sergeant Ramos. Good morning.
    Mr. Shays. Good morning, sir.

                   STATEMENT OF RAYMOND RAMOS

    Staff Sergeant Ramos. I would like to thank the members of 
the Committee on Government Reform and Subcommittee on National 
Security for the opportunity to speak on my health issues while 
deployed in Iraq. I come as a voice of many soldiers who will 
not have the opportunity to have their statements heard and are 
still seeking answers, soldiers like Spc. Gerad Mathew, Spc. 
Anthony Phillip, Sergeant Herbert Reed, Sergeant Agustin Matos, 
Sergeant Jerry Ojeda, Sergeant Anthony Yonnone, Sergeant Hector 
Vega. There are many more who have made the ultimate sacrifice 
for this country and need answers to the questions of poor 
health after having served in the war on global terrorism.
    I served in Iraq from April 3, 2003, to September 6, 2003, 
with the 442nd Military Police Company under the direct command 
headquarters of the 716th Military Police Battalion. We arrived 
in Kuwait and were immediately set out to link up with our 
battalion. After a few days of getting acclimated to the 
weather conditions, our unit was set to cross the border into 
Iraq. First of the soldiers to go forth were myself, an 
operation sergeant, an admin sergeant and a gunner who were 
picked up by two escort vehicles and off we went.
    We linked up with our battalion in Diwanyah. The camp was 
located within an Iraqi University that had been occupied by 
the 1/3 Marine Division who ran the camp. The area in which we 
were given to live was in a science and computer section of the 
University. It was littered with debris, blown out windows, 
human waste, books as well as piles of dust, dirt and sand.
    We had our work cut out for us because this building had to 
be cleaned up before the rest of the unit arrived in a few 
days. Opposite this building was a lab which had been wired off 
because we were told it was used to work on animal and human 
cadavers. On the roof of our building, you could see the bones 
of a camel that had been left outside. Our unit spent 
approximately the next 3 weeks there running enemy prisoner of 
war processing and transport, security checkpoint, front gate 
duty, Iraqi civilian escort, supply missions and operations 
tracking.
    The living areas were shared with ourselves and 716th. 
There was no running water, just a water buffalo and one-man 
shower that could only be used by the 716th.
    Eventually, we built our own showers, got some water cans 
and imagined being home. Latrines were as such, tent poles put 
into the ground to urinate, two wooden stalls with large cans 
underneath to move your bowels. And every day, a detail was 
assigned to burn the waste which was located outside the living 
area.
    The unit was then given the task of establishing training 
curriculum for the new Iraqi police officers academy. Our unit 
consisted of many law enforcement officers and this was a task 
that the battalion wanted us to handle. Approximately 3 weeks 
passed, and our unit was given an assignment. We were to be 
tasked out to the Marines to run in pre-operations, military 
police operations. So we set out to link with the 1/7 Marine 
Division in An Najaf and began an assignment given us. The 
living conditions here were a little better than our last 
location. But we had to deal with the same set of sanitary 
conditions, which was fine with us because our unit was very 
honored and proud to be serving our country. Well, we spent 
about a month there and were given movement orders to As 
Samawah.
    So we set out to join the 2/5 Marine Division. This had to 
be one of the hottest days since we had been in country. During 
the convoy drive, I became dehydrated, which caused me to 
become a heat casualty. The medics had given me three IVs and 
were in fear that I was having a heat stroke. A fourth was 
about to be administered, but then my temperature started to 
improve, and I was given an area to lie down. From that point 
on, my health just began to deteriorate. I became very weak. 
Headaches began. I was constantly fatigued, no real appetite, 
and I just did not feel very well.
    Then it seemed as though the whole unit began to get ill. 
My operations sergeant went down and other soldiers started 
coming down with high fevers, kidney stone problems, diarrhea, 
blood in the urine, and this continued for weeks.
    This train repair facility was horrible. It was inhabited 
by pigeons, rodents, dust, dirt, flies, fleas, oil, trains and 
daily sand storms.
    I just dealt with my condition trying to exercise, work and 
be a productive soldier. These problems didn't stop. They 
persisted and got worse.
    Time had passed, and we had been given orders to move. And 
this is when the Dutch marines arrived. They had come to 
replace us and the 2/5 who were finally going home. I 
remembered being so impressed with the Dutch because it seemed 
as though they brought all of home with them. They immediately 
began to not only get their troops settled in, but began to 
check the environment and living conditions. And I didn't find 
out until I returned to the United States that the Dutch found 
there were too high radiation and asbestos levels which made 
living for their troops unsuitable healthwise. So they moved 
their camp outside the training facility, which brings me to 
this pressing issue.
    Why does it seem as though other countries are concerned 
with their troops' health? The time I spent in Iraq, it seems 
as though there were more pressing issues. I completed and 
viewed risk assessments and didn't see anything about chemical 
or biological threats. I read reports on how all U.S. military 
forces need to be on one page, have the reports forwarded in a 
timely manner, receive better training and even the proper way 
in which the report is to be completed. But don't you think 
that after the first Gulf war and issues of health from that 
war, we should have gotten it right for this one? Or did we 
already know and choose to ignore it?
    Why did it have to take myself and other soldiers getting 
ill to find out about the depleted uranium? Why does a soldier 
have to find out by getting his wife pregnant and having his 
daughter deformed for us to put hearings such as this together? 
Why did I have to experience being looked at in a negative way 
by my immediate chain of command and soldiers in my unit as 
well as doctors and staff at Walter Reed when all I did was be 
concerned for soldiers?
    Why, when the injured, when we inquired about DU in Fort 
Dix, did they inform us that there was no known testing for DU? 
Why did I have to seek outside help to be tested? And why did 
it take myself to find out from the deputy director of 
Deployment Health Support that soldiers' illnesses are tracked, 
and if there are too many of the same illnesses, an alarm is 
set off and commanders are contacted to address the issues?
    Why are commanders living as though they are God deciding 
who goes for treatment? Why was I told that, when I reported my 
findings to the staff at Walter Reed, I was questioned for 
hours and told, out of all the troops from Iraq, what made me 
think I was exposed, that they were the experts and that they 
know I was not contaminated?
    Why are methods of testing not sophisticated enough to 
detect the levels of DU?
    Why was Senator Hillary Clinton told at a Joint Arms 
Committee Meeting that all troops returning from war would be 
tested and today still having to bring proof that they may have 
been contaminated?
    I am here because, as a soldier, this has to be corrected 
by the soldier. It is the soldier, not the reporter, who has 
given us freedom of the press. It is the soldier, not the poet, 
who has given us freedom of speech. It is the soldier, not the 
lawyer, who gives us the right to a fair trial. It is the 
soldier who serves, defends, who salutes and whose coffin is 
draped by the flag.
    I and the others didn't go to Iraq ill. And I need to know 
why it happened. And with all the resources that this country 
has, we need to take responsibility for this and make it right 
with the soldier.
    [The prepared statement of Staff Sergeant Ramos follows:]
    [GRAPHIC] [TIFF OMITTED] T6238.047
    
    [GRAPHIC] [TIFF OMITTED] T6238.048
    
    [GRAPHIC] [TIFF OMITTED] T6238.049
    
    [GRAPHIC] [TIFF OMITTED] T6238.050
    
    [GRAPHIC] [TIFF OMITTED] T6238.051
    
    [GRAPHIC] [TIFF OMITTED] T6238.052
    
    [GRAPHIC] [TIFF OMITTED] T6238.053
    
    [GRAPHIC] [TIFF OMITTED] T6238.054
    
    [GRAPHIC] [TIFF OMITTED] T6238.055
    
    [GRAPHIC] [TIFF OMITTED] T6238.056
    
    [GRAPHIC] [TIFF OMITTED] T6238.057
    
    [GRAPHIC] [TIFF OMITTED] T6238.058
    
    [GRAPHIC] [TIFF OMITTED] T6238.059
    
    [GRAPHIC] [TIFF OMITTED] T6238.060
    
    [GRAPHIC] [TIFF OMITTED] T6238.061
    
    [GRAPHIC] [TIFF OMITTED] T6238.062
    
    [GRAPHIC] [TIFF OMITTED] T6238.063
    
    [GRAPHIC] [TIFF OMITTED] T6238.064
    
    [GRAPHIC] [TIFF OMITTED] T6238.065
    
    [GRAPHIC] [TIFF OMITTED] T6238.066
    
    [GRAPHIC] [TIFF OMITTED] T6238.067
    
    [GRAPHIC] [TIFF OMITTED] T6238.068
    
    [GRAPHIC] [TIFF OMITTED] T6238.069
    
    [GRAPHIC] [TIFF OMITTED] T6238.070
    
    [GRAPHIC] [TIFF OMITTED] T6238.071
    
    [GRAPHIC] [TIFF OMITTED] T6238.072
    
    [GRAPHIC] [TIFF OMITTED] T6238.073
    
    Mr. Shays. Thank you. Let me stop you there, and then I 
will ask you questions of what you had later so you will be 
able to cover the rest of your testimony.
    Mr. Chasteen.

                  STATEMENT OF DAVID CHASTEEN

    Mr. Chasteen. First, I would like to thank Congressman 
Shays and all the members of this subcommittee for organizing 
this hearing.
    I am here today on behalf of Operation Truth, the Nation's 
first and largest Iraq war veterans organization. We represent 
a number of veterans in all 50 States, Puerto Rico and Guam. 
Our mission is to amplify the voice of the troops. Along with 
my fellow veterans, I would like to provide a soldier's 
perspective on the issues addressed in the GAO report.
    As a chemical and biological officer stationed in Bagdad 
with the Third Infantry Division, I was the guy who had to 
answer questions like, is this anthrax vaccine going to make me 
sick? It was up to me to tell the troops that the things we 
were doing to them were keeping them safe and that we were 
shielding them from as much risk as possible. But war is a 
messy, imperfect business and nothing should be taken for 
granted.
    Were the vaccines and other prophylaxis appropriate? 
Absolutely. Did they make some people sick? Yes. Will we know 
the long-term health effects of the various exposures if we 
don't step up efforts now to monitor the situation? No.
    That is the crux of this issue. An ounce of prevention now 
will far outweigh the pound of cure needed if in the future we 
are left to guess at the conditions our troops faced.
    The bottom line is that, when soldiers come back from war, 
they are often sick. Very rarely do we have the opportunity to 
collect good data on why that's the case. Now is the time to 
rigorously enforce the collection reporting of data on 
occupational and environmental hazards for our troops in Iraq.
    This is an opportunity to do the right thing. It will save 
money in the long run, provide better information to our 
doctors and researchers, and, most importantly, go a long way 
toward providing better health care for our soldiers.
    Today, many of our troops are not convinced that their 
health and well being is a priority for the government, and who 
can blame them? There is currently no plan in place for 
evaluating the long-term health care needs for veterans of the 
wars in Iraq and Afghanistan, even though organizations like 
Operation Truth have been calling on Congress and Department of 
Defense to come up with a strategy for over a year now.
    And what's more, the continuing controversy of the funding 
shortfalls in the Department of Veterans Affairs demonstrates 
an inexcusable level of disregard for the pending health needs 
of the more than 1 million uniformed men and women who have 
served tours of duty in Iraq and Afghanistan.
    There are plenty of great folks working hard at the VA, 
including my mother who helps run a VA community-based outreach 
center back home in Indiana. These people need to be given the 
resources required to do their job, and our troops need to know 
that, when they come back from war, they will return to the 
best health care we can offer them.
    In today's edition of the Washington Post, Operation Truth 
has placed an ad calling on President Bush and Congress in no 
uncertain terms to clean up the VA funding mess immediately and 
to provide the leadership needed to ensure that our troops and 
veterans don't get short changed.
    The problems revealed in the GAO report should be addressed 
with the same level of urgency. We have had troops on the 
ground in Iraq for over 2 years now. And we cannot wait any 
longer to make their health needs a top priority. The 
guidelines for health hazard surveillance exists, as noted in 
the report, the results of previous congressional hearings 
similar to this one today.
    Our Congress must demand that the Department of Defense 
correct the problems that our commanders in the field face when 
they try to follow these guidelines and the hurdles our 
doctors, nurses and researchers run up against when they try to 
put that field research to good use. Reporting must be 
standardized between the branches of service, and 
classification policies must be re-evaluated to ensure that 
they don't needlessly jeopardize the health of our troops. The 
Department of Defense must work more closely with the VA to 
better anticipate the health needs of our returning troops.
    On behalf of your constituents, you should not tolerate 
continued foot dragging when it comes to the well being of our 
men and women in uniform. They must know that the full 
resources of Congress are being brought to bear on their 
behalf, that they won't have to fight a second war for adequate 
health care when they return home.
    Our troops should know that not just our country but also 
their government is committed to their well-being. Thank you.
    [The prepared statement of Mr. Chasteen follows:]
    [GRAPHIC] [TIFF OMITTED] T6238.074
    
    [GRAPHIC] [TIFF OMITTED] T6238.075
    
    Mr. Shays. Thank you very much.
    Dr. Crosse.

               STATEMENT OF MARCIA CROSSE, Ph.D.

    Dr. Crosse. Mr. Chairman, members of the subcommittee, I am 
pleased to be here today as you consider DOD's efforts to 
collect and report health surveillance data to address health 
issues of deployed service members.
    These issues have been of particular interest since the end 
of 1991 Persian Gulf war when many service members subsequently 
reported suffering from unexplained illnesses.
    Research and investigations into these illnesses were 
hampered by a lack of health and deployment data including 
inadequate occupational and environmental exposure data. In 
response, DOD developed military-wide occupational and 
environmental health surveillance policies for use during 
deployments. These policies call for the submission of health 
surveillance reports to a centralized archive within specified 
timeframes. The military services are responsible for 
implementing these policies.
    My remarks will summarize our findings on how the deployed 
military services have implemented these policies for Operation 
Iraqi Freedom [OIF], and the efforts underway to use health 
surveillance reports to address both the immediate and long-
term health issues of the deployed service members.
    In reviewing the implementation of these policies, we found 
that, although health surveillance data generally have been 
collected and reported for OIF, the deployed military services 
have used varying data collection standards to conduct their 
health surveillance. As a result, they have not been collecting 
comparable information.
    In addition, the deployed military services have not 
submitted all health surveillance reports for OIF as required 
by DOD policy for archiving the information. However, officials 
don't know if reports are not being completed or if they are 
just not being submitted to the archive because they do not 
have information about how many health surveillance reports 
have been completed during OIF.
    DOD has made progress using health surveillance reports to 
address immediate in-theater health risks during OIF. OIF is 
the first major deployment in which health surveillance reports 
have been used routinely as part of operational risk-management 
activities. These activities have included health risk 
assessments of the potential hazards at a site, including soil 
and water samples; risk mitigation activities to reduce 
potential exposure, such as relocating trash burning pits 
downwind of housing; and risk communication efforts to make 
service members aware of the possible health risks, such as 
reminders to use insect repellent to reduce the likelihood of 
insect-borne diseases. While these efforts may help to reduce 
immediate health risks, DOD has not evaluated their 
effectiveness in OIF.
    DOD's ability to address potential long-term health effects 
is limited by several factors related to the use of its 
centralized archive of health surveillance reports for OIF. 
These include limited access to most reports because of 
security classification, incomplete data on service members' 
deployment locations and the lack of a comprehensive Federal 
research plan incorporating the use of archived health 
surveillance reports. Overall, although DOD has made progress 
with health surveillance data collection and reporting, the 
usefulness of such reports is hampered by DOD's limited ability 
to link reported information to individual service members.
    DOD officials have said they are revising an existing 
policy to add more specific health surveillance requirements, 
but unless the military services take measures to implement 
this policy, efforts to collect and report health surveillance 
data may not improve.
    Consequently, we recommended that the Secretary of Defense 
ensure that cross-service guidance is created to implement 
DOD's policy once it has been revised in order to improve both 
the collection and reporting of health surveillance data during 
deployments and the linking of this information to service 
members.
    While DOD's risk management efforts during OIF represent a 
positive step, the lack of systematic monitoring prevents full 
knowledge of their effectiveness. Therefore, we recommend that 
the military services jointly establish and implement 
procedures to evaluate the effectiveness of risk-management 
efforts.
    Furthermore, although health surveillance reports alone are 
not sufficient to identify the causes of potential long-term 
health effects, they are an important part of research on the 
long-term health of deployed service members. To better address 
potential health effects of deployment in support of OIF, we 
recommend that DOD and VA work together to develop a Federal 
research plan that would include the use of archived health 
surveillance reports.
    Mr. Chairman, this completes my prepared statement. I would 
be happy to respond to any questions you or other members of 
the subcommittee may have at this time. Thank you.
    [Note.--The GAO report entitled, ``Defense Health Care, 
Improvements Needed in Occupational and Environmental Health 
Surveillance During Deployments to Address Immediate and Long-
term Health Issues, GAO-05-632,'' may be found in subcommittee 
files.]
    [The prepared statement of Dr. Crosse follows:]
    [GRAPHIC] [TIFF OMITTED] T6238.076
    
    [GRAPHIC] [TIFF OMITTED] T6238.077
    
    [GRAPHIC] [TIFF OMITTED] T6238.078
    
    [GRAPHIC] [TIFF OMITTED] T6238.079
    
    [GRAPHIC] [TIFF OMITTED] T6238.080
    
    [GRAPHIC] [TIFF OMITTED] T6238.081
    
    [GRAPHIC] [TIFF OMITTED] T6238.082
    
    [GRAPHIC] [TIFF OMITTED] T6238.083
    
    [GRAPHIC] [TIFF OMITTED] T6238.084
    
    [GRAPHIC] [TIFF OMITTED] T6238.085
    
    [GRAPHIC] [TIFF OMITTED] T6238.086
    
    [GRAPHIC] [TIFF OMITTED] T6238.087
    
    [GRAPHIC] [TIFF OMITTED] T6238.088
    
    [GRAPHIC] [TIFF OMITTED] T6238.089
    
    [GRAPHIC] [TIFF OMITTED] T6238.090
    
    [GRAPHIC] [TIFF OMITTED] T6238.091
    
    [GRAPHIC] [TIFF OMITTED] T6238.092
    
    [GRAPHIC] [TIFF OMITTED] T6238.093
    
    [GRAPHIC] [TIFF OMITTED] T6238.094
    
    [GRAPHIC] [TIFF OMITTED] T6238.095
    
    [GRAPHIC] [TIFF OMITTED] T6238.096
    
    [GRAPHIC] [TIFF OMITTED] T6238.097
    
    [GRAPHIC] [TIFF OMITTED] T6238.098
    
    [GRAPHIC] [TIFF OMITTED] T6238.099
    
    [GRAPHIC] [TIFF OMITTED] T6238.100
    
    [GRAPHIC] [TIFF OMITTED] T6238.101
    
    [GRAPHIC] [TIFF OMITTED] T6238.102
    
    [GRAPHIC] [TIFF OMITTED] T6238.103
    
    [GRAPHIC] [TIFF OMITTED] T6238.104
    
    Mr. Shays. Thank you. At this time, the chair would 
recognize Mr. Kucinich. I know he is putting his statement in 
the record. But I welcome him to make a statement, and he could 
start out with questions if likes.
    Mr. Kucinich. I thank the chairman.
    And I would like, with the Chair's indulgence, to have my 
statement be included in the record and, also with the Chair's 
indulgence, to be able to ask a few questions at this time.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]
[GRAPHIC] [TIFF OMITTED] T6238.105

[GRAPHIC] [TIFF OMITTED] T6238.106

[GRAPHIC] [TIFF OMITTED] T6238.107

[GRAPHIC] [TIFF OMITTED] T6238.108

[GRAPHIC] [TIFF OMITTED] T6238.109

    Mr. Shays. Yes. You have the floor.
    Mr. Kucinich. I want to thank the chair. I want to start 
with all the witnesses and say thank you for attending and for 
your concern about protecting the health of those who serve 
this country.
    I would like to begin by asking Staff Sergeant Ramos, 
uranium toxicity is not an every day occurrence. And we do not 
know of all the effects or how to test for this highly 
dangerous illness. Could you tell us a little bit more about 
your unit's experience with depleted uranium radiation?
    Staff Sergeant Ramos. I didn't know anything about DU.
    I started getting these symptoms, and as I mentioned in my 
statement, when I inquired, our medic had to come back, and he 
had mentioned to us that the Dutch had found some radiation 
levels. I inquired about it at Fort Dix, about depleted 
uranium. We met with a lieutenant there. We sat down, and he 
told us that we had nothing to worry about. And we said, well, 
how can we get tested to make sure? And we were told that there 
was no known testing for depleted uranium. I had gone outside 
of the military to inquire as to how I could be tested.
    Mr. Kucinich. And when you went outside the military, what 
information were you able to get on your own that you weren't 
given by----
    Staff Sergeant Ramos. I was put in contact with a Dr. 
Durakovic, Asaf Durakovic. And he took the urine samples of 
myself and some other soldiers. And the samples were sent out 
to three different countries, Germany, Japan and Spain. And 
then I received a report from him, which I have a copy of it 
here on March 24, 2003.
    And which it explained the ratio of 238 and 235 is 146.9.
    Mr. Kucinich. Mr. Chairman, is that already in the record?
    Mr. Shays. No. So without objection, we will put it in the 
record.
    Mr. Kucinich. So when you received that report, what went 
on in your mind about this experience.
    Staff Sergeant Ramos. When I received the report, I was 
confused. I didn't know what was going on. And I said, I need 
to get answers to this. I had already started my medical board 
process at Walter Reed. So when I informed them that I had this 
document, I was told to get a copy of it and submit it for 
review.
    When I had it faxed to me--I turned this in at the medical 
board. And then I was directed to meet with a Colonel Hack and 
Lieutenant Colonel Mercer at Walter Reed.
    Mr. Kucinich. In looking over your testimony, I just would 
like to go back over something. How did you come into contact 
with depleted uranium?
    Staff Sergeant Ramos. Sir, I don't know how I came into 
contact with it. I don't know in whatever part of the country 
in Iraq I was in; I was not aware of what was in my 
surroundings. When I was at the train station is where I became 
the most ill.
    Mr. Kucinich. Let me ask you this if I may.
    Were you firing any munitions yourself.
    Staff Sergeant Ramos. No. I did not fire any munitions.
    Mr. Kucinich. But you were in places, say, after the fact?
    Staff Sergeant Ramos. Correct.
    Mr. Kucinich. You were in places where it is your belief 
that you were exposed?
    Staff Sergeant Ramos. Yes.
    Mr. Kucinich. To depleted uranium?
    Staff Sergeant Ramos. Yes.
    Mr. Kucinich. Were you exposed on skin, or did you breathe 
it in? Do you know? Could that really be ascertained?
    Staff Sergeant Ramos. Sir, the only thing that I can think 
of is inhaling. There was a lot of dust blown around the area. 
And that is the only way I think I could have gotten it.
    Mr. Kucinich. How are you feeling now?
    Staff Sergeant Ramos. I have daily headaches. I have 
numbness. My hands go numb. I have joint pains and fatigue.
    Mr. Kucinich. How old are you?
    Staff Sergeant Ramos. I just turned 43.
    Mr. Kucinich. And other than this encounter with depleted 
uranium, were you in pretty good health?
    Staff Sergeant Ramos. Prior to me going to Iraq, yes.
    Mr. Kucinich. Have you been in touch with others in your 
unit who went there?
    Staff Sergeant Ramos. Yes.
    Mr. Kucinich. And they have experienced some of the same 
concerns, physical problems?
    Staff Sergeant Ramos. The soldiers that I know of that were 
tested, yes. Other soldiers in my unit, they haven't expressed 
anything--any ill effects to me. Just the soldiers that were in 
my unit.
    Mr. Kucinich. In your testimony, you alluded to one of your 
associates whose wife gave birth and the baby was deformed.
    Staff Sergeant Ramos. Yes.
    Mr. Kucinich. Are you in touch with that family still?
    Staff Sergeant Ramos. Yes.
    Mr. Kucinich. Have they had any tests done that would link 
the birth deformity to the exposure of your associate?
    Staff Sergeant Ramos. He has not had a test that has linked 
the exposure to his child. He has tested himself and has tested 
positive.
    Mr. Kucinich. Positive for what?
    Staff Sergeant Ramos. Depleted uranium.
    Mr. Kucinich. I would like to ask just one question, if I 
may, of Mr. Chasteen. What conclusions have you made about the 
medical health system currently in place for soldiers relating 
to this issue about depleted uranium?
    Mr. Chasteen. Actually, it is interesting that you bring 
that up. A Gulf war resource center had a conference in Florida 
a couple months ago which was a really good opportunity to get 
soldiers and VSOs together along with the VHA people who are 
working on these issues. I had a long conversation, made a 
friend with Dr. Drew Helmer, who is a neurologist working at 
the War-Related Illness and Injury Study Center at the 
Department of Veterans' Affairs in New Jersey. The VA actually 
has specific resources set up, kind of cutting edge stuff where 
they have researchers and practitioners both working for 
people, such as Sergeant Ramos, who have illnesses that 
probably are linked to their service but have been unable to 
conclusively make a connection to the satisfaction of the VA.
    The problem that I have found is that the VA centers in 
general are unaware of the resources that are available 
elsewhere in the VA for these kinds of research and finding 
these kinds of things out. So on the one hand, VA is doing real 
good, cutting-edge work in trying to connect people with an 
answer. But the VA system at large isn't aware sometimes of 
even the resources available internally, and also, these are 
very small centers that have very little funding. I don't know 
if that answers your question.
    Mr. Kucinich. OK, Mr. Chairman, I just want to put this on 
the record. You know, my staff had contacted the Department of 
Defense, maybe it was a couple of years ago when the first 
discussions came up about depleted uranium munitions. And maybe 
there is some confusion about it. But some of the information 
we were getting out of the Feds was that there were some people 
who were actually denying that such munitions were even being 
used.
    I just wanted to mention that to you because I don't know 
that we have had any subsequent hearings where it has truly 
been established that depleted uranium munitions were used and 
the level at which they were used and the attendant health 
risks to our soldiers or to the civilian population.
    Mr. Shays. In response to the gentleman's question, we 
haven't had any hearings specifically about depleted uranium, 
and frankly, the case is really still out whether this 
represents a problem or not.
    The tests that is on you is a question of reliability, and 
everybody has some radiation in their bodies. So the issue is, 
is this just abnormal because you were there or would we find 
that same issue in people in the United States? So it probably 
is an area that some time we should focus on. We just, you 
know, pick our hearings and have many to chose from.
    Mr. Kucinich. I want to thank the Chair for having this 
hearing. And as always, you are very concerned in general what 
is happening with the people who serve this country. So I thank 
you.
    Mr. Shays. I thank the gentleman.
    I love my staff. We get in a dispute whether it is Ramos or 
Ramos. You need to tell me how to say your name.
    Staff Sergeant Ramos. Ramos.
    Mr. Shays. We will chalk one up to the understaff and not 
to the counsel here.
    Staff Sergeant Ramos, I would like you to, because I cut 
you short here, would you just tell me the illnesses you had? 
You said, here is a list of what I came back with.
    Staff Sergeant Ramos. Sleep apnea with fatigue, 
Fibromyalgia.
    Mr. Shays. What does the percent mean? I don't understand 
the percent. It says zero percent.
    Staff Sergeant Ramos. These are, prior to me being 
deactivated from military service, these are percentages I 
received from Department of Defense. It is not what I have 
received from the VA. This is from the Department of Defense.
    Mr. Shays. So it is a disability rating? It is not the 
percent of sleep fatigue?
    Staff Sergeant Ramos. It is a disability rating.
    Mr. Shays. It is not the percentage of sleep----
    Staff Sergeant Ramos. No. Fibromyalgia was zero percent. 
The PSTD, headaches with Punctuate White Matter, Ischemic 
Changes in Parietal Lobes, 30 percent. Cervical myalgia, zero 
percent. History of single Leishmaniasis lesion on Left 
Anterior Chest, now with pigmented scar, zero percent. 
Bilateral Ulnar Nerve Compression Neuropathy, zero percent. 
Depleted uranium exposure medically acceptable, zero percent. 
Skin rashes, zero percent.
    Mr. Shays. I am going to, at this time, have our counsel 
ask some questions to the witnesses.
    Mr. Halloran. Let me start with Dr. Crosse. Could you 
describe for us the impact or the differences you saw in this 
military service branch's approach to these issues and the 
impact those differences had on the effectiveness of the 
surveillance program?
    Dr. Crosse. Yes. Let me see if this microphone will work 
this time. The services have teams of preventive medicine units 
that go out to do this range of activities that they engage in. 
The teams are composed of different types of individuals with 
different sorts of expertise. Each service has comprised their 
teams of different kinds of specialists. And so, to begin with, 
you have people with different sorts of training, levels of 
expertise going out and doing this.
    It's not necessary that an Army unit would necessarily have 
an Army preventive medicine team coming in there. So you can't 
just assume that the data that are collected for Army bases are 
comparable. Because some of the data for an Army installation 
might be collected by an Army unit, some of it might be 
collected by a Navy unit coming in. They have different types 
of expertise.
    They also collect somewhat different information. For 
example, the water sampling is done the same across all the 
services, but the soil sampling is different. The Army teams 
collect samples for 20 types of hazards, the Navy teams collect 
samples for 15 types of hazards, so it's highly dependent upon 
who has done the data collection at a particular installation 
at a particular time as to what kind of information would have 
been gathered to even be available for archiving.
    Mr. Halloran. What explains the consistency of water 
testing? Is that a happy accident or did----
    Dr. Crosse. Well, each service has been allowed to develop 
their own guidance to implement these broader policies. DOD is 
now in the process of trying to modify some of this--the 
policies to try to get more comparable kinds of requirements 
across the services, but that's not yet in place.
    Mr. Halloran. So they all just have to do about same water 
standard, is that----
    Dr. Crosse. Perhaps. There is a joint working group that is 
trying to come together to develop standards. And it may be 
that water sampling is more straightforward. I'm not a 
technical expert to say why that may be the case. But they've 
implemented them in different ways with different types of 
individuals, different levels of training.
    Mr. Halloran. DOD points to a low rate of non-battle 
disease injuries in this theater in particular, in Iraq, as 
admittedly indirect evidence of the effectiveness of these 
preventative medicine programs. Can you evaluate that claim for 
us?
    Dr. Crosse. I think it does give some reassurance for the 
kind of immediate health effects that you would see in theater. 
They have, as we said, made progress I think in going out and 
trying to examine the risks on a base, to try to locate trash 
burning away from housing, to try to do other kinds of things 
that would reduce some of the immediate risk the troops might 
face. I think it's way too soon to know what it has done for 
longer-term health effects.
    Mr. Halloran. Sergeant Major La Morte, let me segue to you 
on that subject. In your testimony you describe various moves 
your unit made to different locations. At each of those 
locations, could you describe for the subcommittee the kinds of 
environmental information you were given before, during, after 
your stay there in terms of what hazards might be there, what 
to avoid, what mitigation steps you might take?
    Sergeant Major La Morte. The only report we had when I was 
at the Forward Operating Base 32 was that the Taranac Farms 
trading area that we used as a range came up hot for blood 
agent and nerve gas agents; and we assumed, having not taken it 
with us, that it was left from the Soviets since they travelled 
with those chemical weapons as part of their SOP.
    Mr. Halloran. And that area is just marked off as hot and 
you didn't go there, or what was done about it?
    Sergeant Major La Morte. The last report I had, that area 
has been bulldozed over and is no longer used.
    Mr. Halloran. And did you make note of that incident in 
your other----
    Sergeant Major La Morte. I made notes--when I came home, I 
put it in my medical records that I had been in the area of 
contamination, but I have nothing--because that report was 
secret--that I can put in my medical records.
    Mr. Halloran. Staff Sergeant Ramos, could you address the 
same question in terms of the locations? If so, what kind of 
environmental occupational hazards were you told were there? 
What information were you told about what to do about them?
    Staff Sergeant Ramos. Right. The information that I was 
given afterwards is that there were tanks, vehicles that had 
been struck by rounds that were outside the encampment. I 
worked in an operations cell, so I was pretty much enclosed in 
the building 24 hours a day. I wasn't aware of what was outside 
the encampment. It wasn't until, as I said in my statement, 
when I got back that I was told that when the Dutch came in 
they were taking samples, and they found it unsuitable for 
their soldiers to stay in the training facility, so they built 
a holding encampment outside of the training facility in 
Samawah.
    Mr. Halloran. Mr. Chasteen, does your organization have any 
kind of information or visibility on the pre- and post-
deployment health assessments and their use and effectiveness?
    Mr. Chasteen. We do actually have some reports on that. I 
don't have it handy. I can have my staff get it to you.
    I will say, though, that I agree. I think it's been a 
marked improvement from the first Gulf war in terms of actually 
having those assessments and doing those assessments. I know 
that me and my soldiers got the pre- and post-deployment 
assessments. I know that was a little more regular for Active 
Duty soldiers than it was for National Guard and Reserve 
soldiers, which is I think not surprising just in terms of kind 
of central locations for both where the soldiers lived and 
where they were going to return to after they deployed and came 
back.
    Again, with any of these things, you've got conflicting 
motivations. The soldiers, they want to go home. They're not 
real interested in a post-deployment examination. They want to 
get back to their families. And if those families are off base, 
it can be harder for National Guard and Reserve soldiers to 
have to stick around an additional week to get those done, as 
opposed to Active Duty soldiers who can go home tonight, come 
back in a couple of work days and get that done.
    So those are some of the issues that are at play there.
    Mr. Halloran. Staff Sergeant Ramos, I think you said you 
have sought VA care since you separated from the service; is 
that right?
    Staff Sergeant Ramos. Yes. When I separated from the 
service, I went to the VA to file my paperwork for my health 
issues, and since then I've received 80 percent from the VA for 
my health issues.
    Mr. Halloran. So you found both the VA disability, the 
process and the health care process had access to information 
they needed from your military medical records?
    Staff Sergeant Ramos. Well, I had made copies of my 
military medical records. I had to make copies. We had a lot of 
issues in Fort Dix where things were taken out of your medical 
records, so I made copies of everything.
    So when I came back I had everything chronologically filed, 
and I submitted for each one of my issues documentation, 
medications that I was taking, so it made it very easy. Because 
the VA's computer system is not on the same with DOD's, so they 
don't have access to doctors' notes or addendums.
    Mr. Halloran. So you did that yourself.
    Staff Sergeant Ramos. I did that myself.
    Mr. Halloran. And, Dr. Crosse, what kind of information did 
GAO find getting into individual medical records?
    Dr. Crosse. Well, there is not a lot of getting individual 
medical records generally. For the air bases, the Air Force has 
created a summary that can be placed into each service member's 
medical record that explains the sorts of hazards that exist at 
that air base. It will talk about exposure to fumes from the 
fuels and other kinds of things that would exist in that area, 
the sorts of insects and diseases that are known, the dust or 
other kinds of problems that may exist in that location; and 
that's placed into every service member's record who is at the 
air base. That is not done regularly for service members in 
other locations, however.
    For Port Shuaiba, the Army and the Navy have created a 
similar kind of exposure summary document, but it's up to 
individual service members to place that into their own medical 
record if they want it to be placed there. It's not routinely 
done for them.
    The other kind of exposure documents that would be placed 
into a service member's record is if there is an incident that 
is actually investigated. If, for example, a tank blows up and 
a lot of people become ill from the fumes and they go in and 
try to determine what kind of chemical was there and who was 
exposed, then there could be a report made for all of the 
service members who were exposed in that specific incident. 
But, otherwise, there are not routine reports being placed into 
service members' records for each location where they're housed 
as they're moved around in Iraq.
    Mr. Halloran. Sergeant Major La Morte and Staff Sergeant 
Ramos and even Mr. Chasteen, were you told--let me try to 
address Congressman Kucinich's question. Were you told there 
were DU rounds in the vicinity at any time? Were you told about 
the hazards of DU before, during or after your deployment?
    Sergeant Major La Morte. Yes, sir. I'm aware of DU hazards. 
It's in our training for MDC training. There were no reports 
that I'm aware of in the military that have indications where 
those rounds were used. If there was an overlay for that area, 
it would be helpful. Any time that the Air Force is working 
with an Asian aircraft, it has depleted uranium rounds. I would 
assume that you're in a depleted uranium area.
    Mr. Halloran. And, Staff Sergeant Ramos, I think you said 
there were some bombed vehicles, or just----
    Staff Sergeant Ramos. Yes, there were vehicles. Especially 
there was one outside of the operations area. There was a 
vehicle that was left there. But----
    Mr. Halloran. Was it said or known that it was a DU round, 
or just suspected?
    Staff Sergeant Ramos. No. I just saw a vehicle that was 
blown or shot up that was left there in front of the building 
that we ran our operations out of.
    But, as far as training, we didn't get anything on DU. Most 
of our training was on MP operations, patrols, and how to 
properly mark unexploded ordinances.
    Mr. Halloran. And has DOD communicated with you since 
you've returned, saying you were part of a cohort or a group 
that might have been exposed to certain hazards at the training 
location?
    Staff Sergeant Ramos. No, I have not.
    Mr. Halloran. VA neither?
    Staff Sergeant Ramos. No.
    Mr. Chasteen. I was actually the radiation safety officer 
for my DIVARTY, and so depleted uranium was my purview as part 
of my responsibilities. We did do depleted uranium training for 
soldiers who were going to be coming into contact with those 
kinds of rounds.
    Obviously, the most common use of depleted uranium in the 
Army is for cab guys, guys who are operating the M-1A and M-1A-
2 battle tank. Those units do depleted uranium training on a 
regular basis because there is an immediate hazard to soldiers 
who handle DU rounds and then would eat afterwards without 
having washed their hands. Because, obviously, the main risk of 
DU is through ingestion, and that can be a serious problem 
because it is toxic.
    The soldiers who were going to be working with--we have 
some artillery soldiers who are Reservists who were attached to 
the cab who did actually get depleted uranium training to make 
sure that they understood that if they were handling those 
rounds or near those rounds, whatever, that they needed to take 
part in precautions, which mostly involved washing their hands 
before they ate.
    Mr. Kucinich. If I may, Mr. Chairman, to Mr. Chasteen, how 
many soldiers received depleted uranium training, to your 
knowledge?
    Mr. Chasteen. I would have to say, as part of--there are 
annual NBC requirements and there are annual radiation safety 
requirements. So my specialists, my 54 Bravas, NBC NCOs who 
were attached to each company or battery and DIVARTY, those 
guys would get it as part of their annualized training.
    Mr. Kucinich. Can you extrapolate as to how many that might 
be?
    Mr. Chasteen. Well, I would say it would be approximately 
32, but those would be the specialists who were assigned to 
each battery. So the specialists who were responsible for 
knowing those things got the training on a regular basis, but 
in terms of then disseminating that information out to the rest 
of the soldiers, I can't say.
    Mr. Shays. Let me tell you, Dr. Crosse, I have one question 
that I want you to think of the answer, so I will just have a 
conversation with the others for a second. You might want to 
consult with your colleagues.
    I want you to rank the four branches as to which is further 
along in this effort. The bottom line to your report is we're 
making progress on optional safety issues in the environment in 
the workplace, but which is doing the best at keeping proper 
records and trying to keep track of our soldiers in this case 
and which is doing the worst? And then I want you to explain to 
me why.
    Staff Sergeant Ramos, your testimony, I thought--what I was 
struck most by--and obviously all of your testimony is very 
helpful--but you said, when you're talking about the Dutch, 
they immediately began to not only get their troops settled in 
but began to check the environment and living conditions; and I 
didn't find out until I returned to the United States that the 
Dutch found there were too high radiation asbestos levels, 
which made living for their troops unsuitable healthwise, so 
they moved their camp outside the training facility.
    I think that speaks volumes. Our folks lived there, and the 
troops that replaced them decided to live somewhere else 
because they bothered to check.
    And I would say to you, Sergeant Major La Morte, I found 
this interesting. I and my fellow soldiers were willing to face 
combat and the dangers that it brings, but what I find 
disturbing is the looking the other way when it's time to treat 
or even test the members who are so willing to face bodily 
harm. The right things need to be done. Step up the monitoring 
and the treatment and documentation of the exposure.
    What I take from your testimony is you all know that 
sometimes you're going to be in bad workplaces. Now sometimes 
you don't have to live in one place, you can move, but when 
you're fighting, you're going to have--OSHA inspectors aren't 
going to be able to tell everybody exactly how to conduct 
themselves. Sometimes they simply can't. So you're going to be 
exposed to bad things.
    I think your point is, when we are, we need to make sure 
that we're aware of it, are tracking it, and following that 
throughout the rest of that individual's life. That is the 
obligation that I think exists.
    Dr. Crosse, I'm trying to filibuster here. Do you have 
enough----
    Dr. Crosse. I have an answer.
    First, I would say that the archives aren't tracking which 
services are submitting reports. As I mentioned before, 
sometimes the Navy unit is submitting a report for an Army 
base. However, we believe in general that the Army and the Air 
Force are doing a better job than the Navy and the Marines. The 
Army has the lead responsibility and the longest history 
because of CHPPM, their Center for Health Protection--I'm 
forgetting what it stands for there--Health Promotion, and they 
have had the lead in general on these issues.
    The Air Force has an advantage of having fewer fixed 
facilities, and they have taken the lead on creating these 
exposure summaries that they place into the records of every 
service member.
    The Navy and the Marines have lagged both in terms of doing 
the pre- and post-deployment health assessments. GAO put out a 
report a few months ago on the pre- and post-deployment health 
assessments, and the Air Force and the Army were doing a much 
better job than the Navy and Marines--particularly than the 
Marines in doing those kinds of health assessments and getting 
them into the individual service member's records.
    Also, the Marines are supported by the Navy, but the 
Marines are moving around to many different locations in Iraq, 
and their location identification has been a particular 
problem, we believe.
    So, in general, that's the order in which we would place 
the services. But, again, we don't have across-the-board data 
to measure different components for each service.
    Mr. Shays. What type of cooperation did you think you were 
receiving from the branches when you were doing your study?
    Dr. Crosse. I believe we had good cooperation from them. I 
think that the problem is that some of the kinds of information 
we wanted to obtain just weren't available.
    Mr. Shays. Because they were classified or they just 
weren't available?
    Dr. Crosse. Well, some of both. But we have security 
clearances so that we would be able to access the information, 
so it was really more of an issue of some of the kinds of 
information just aren't available.
    Mr. Shays. Before the troops were sent--we had the military 
here. They said they would be checked out before they went, and 
they would be checked out when they got back.
    What I'm troubled with is, first, I'm not quite sure what 
``checked out'' means now. Second, though, when a soldier is 
requesting--and others can speak to this as well--requesting 
that they verify for certain exposures and it's not being done, 
I particularly find that unsettling. In other words, if a 
soldier says I think I was exposed.
    But, tell me, what is your sense of how many troops, if you 
have a sense, where their health was verified at the beginning 
and how many when you came back do you think they went through 
a decent health check?
    Dr. Crosse. In terms of the pre- and post-deployment health 
assessments, which is a fairly short assessment that's done, 
the Army and the Air Force were in excess of 90 percent, the 
Marines were somewhere around 70 percent, and the Navy was a 
little above that, maybe 80 percent. I don't have the programs, 
I could provide them to your staff.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6238.110
    
    Mr. Shays. When you asked officials there why, frankly, not 
100 percent but certainly why just 70 percent, what kind of 
response would you have received?
    Dr. Crosse. Well, that wasn't part of this review. We do 
have an entirely separate report on that.
    But some of the issues were, just as Mr. Chasteen 
mentioned, some of the service members wanted to quickly be 
demobilized and get back to their families. It was not 
necessarily being done within the first day or two of their 
arrival back stateside, and so that became a problem, getting 
people back in or being sure that all of the steps that were 
necessary were completed. So it was apparently more routine and 
given a higher priority by the Army and the Air Force.
    We also noted in that report that we had previously looked 
at the Army and the Air Force for their compliance rates, and 
they had improved considerably. We had not previously looked at 
the Navy and Marine compliance with those requirements, and 
they were still quite low.
    Mr. Shays. Some of this is like a bad memory for me because 
we've had so many hearings on this, and there has been a lot of 
resistance, not now, on the part of DOD and the VA. But what we 
learned from VA was they hardly had anyone, any doctor, who had 
any background in occupational hazards. It was as if they could 
name only two people out of thousands; and so, you know, the 
expertise they had just wasn't in this area.
    But literally sitting at that table or one like it, on 
either side of Mr. Donnelly was his wife and his father. When 
we asked him would he still have gone in the military and 
served if he knew that he would get ALS, I thought he would 
say, what are you, crazy? But his word was said so softly 
because he couldn't speak very loudly, but he said it quickly, 
it wasn't a hesitation.
    So I just think it's important to just put on the record 
that when we have military people who come down and complain 
about their bad health, I think they have, one, a right to be 
unhappy if they were exposed needlessly, but I think they also 
know that they're sometimes going to be exposed. But I think 
they have a real right to be angry if they believe that they 
have been exposed and aren't getting the kind of care they 
need. And that care means that we need to have the records, we 
need to know how they went in, we need to know how they left.
    Then there are, frankly, some folks who may not feel well 
today but have no sense that it may be connected to their 
military service because there may have been a bit of delay. It 
is unsettling to think that someone gives birth to a child--
and, I mean, there are children who are born deformed from 
parents who were not serving in the military, so you're not 
always sure, but the fact that someone could wonder. If I were 
in the service and I knew that my child was deformed and I 
thought it might be because of something I did or received, it 
would be something I would be living with the rest of my life, 
even though I couldn't be blamed for it. But it's just--so 
there are just lots of different levels of the need to continue 
to make further progress.
    What do you think would be the most helpful thing we could 
be suggesting to our next panel from the VA and DOD?
    Dr. Crosse. Well, we believe that----
    Mr. Shays. And I open that to all the panelists as my last 
question.
    Dr. Crosse. We believe that they need to be sure that the 
policies they're putting in place are implemented consistently, 
which would include the collection of this kind of information 
and the archiving of that information, including the location 
data that their policies already call for but that are not 
consistently being complied with.
    We also believe that they need to put in place some more 
specific plans for evaluating and researching what is going on 
and the effects on the service members.
    Mr. Chasteen. I would say that, as with many things in the 
military, it's extremely important that you make sure that the 
responsibility for making sure the policies get implemented 
falls with the person who has the power to make sure that those 
orders are actually enforced.
    What's going to be important is, if we're going to make 
this a priority, it has to be something that the command is 
aware of and the command is going to be evaluated on. If the 
commanders have on their OER, you know, did or did not complete 
with guidance on pre and post, this, that and the other, the 
problem is you have a commander deciding whether or not the 
soldiers can go home early who doesn't necessarily have to have 
the responsibility for whether or not the surveys get done and 
get sent up to highers. Does that make sense?
    Mr. Shays. Yes.
    Mr. Chasteen. So you have to make sure that the commanders 
are going to be evaluated on whether or not they comply with 
this, and that's the only way it's going to get done.
    Mr. Shays. Now, speaking to our two sergeants here, did you 
feel that it was the responsibility--why don't you answer the 
question I just asked, and then I'll ask this last question.
    Staff Sergeant Ramos. Well, I agree with Mr. Chasteen that 
the responsibility has to fall on the commanders. The 
commanders are given a great deal of responsibility, and one of 
the responsibilities, most important, is the welfare of their 
soldiers.
    I also believe that when soldiers DMOB, that DMOB stations 
do not offer soldiers a speedy exit: If you sign this waiver 
you can get home right away. But then the soldier doesn't 
understand that, once they sign that waiver, if something 
should happen to them later on, they can't come back to the 
mobilization station and say, you know, my thumb was hurting 
me. Uh, uh, uh, you signed this waiver, so medically you're 
cleared.
    I think that's where a lot of problems are happening, 
especially with my unit. They returned, and they were 
immediately given bottles to submit samples for DU. They stood 
on long lines; and they were told, oh, it's going to take a 
long time. A lot of them just did not test.
    Mr. Shays. OK.
    Sergeant Major La Morte. One of the problems we have is 
everything is documented as secret, especially in the special 
operations community.
    Mr. Shays. Not everything is documented as secret. Let's 
not get carried away. What do you mean by everything?
    Sergeant Major La Morte. Where I've been, what I've done in 
country is classified secret. There is no correlation when I 
have gone on patrol, where I've gone, whether I've been exposed 
to agents or not. If we have to hastily take over a house, 
nothing has been checked.
    Mr. Shays. Right. But that's going to happen, you're going 
to take over a house, and it's not going to be checked, right?
    Sergeant Major La Morte. I understand that, sir, but if 
where I have been is kept secret and later on it is identified 
as a hot spot, how am I going to be correlated into that area?
    Mr. Shays. Good point.
    Sergeant Major La Morte. A lot of the historical 
documentation has been wiped off computers in order to bring it 
back in the country or left in country. It is as easy to keep 
the documents there than it is to transport them. There is a 
lot of electronic media than we don't have access to bring 
home.
    Mr. Chasteen. The Sergeant Major and I were discussing this 
before this hearing conferred. A lot of times the VA is asking 
for information regarding where soldiers were located when they 
were serving to try to make correlations between agent 
exposures and things like that, and something that you actually 
run into is there is a real disincentive to actually even bring 
that information back from the deployment.
    You know, every battle captain like myself keeps logs of 
what takes place during combat operations. Those logs are 
classified. At the end mobilization there is this big return 
home, and almost everything that you have worked with during 
deployment, all this staff work and all these other things, 
they're classified because it happened during war. Then when 
it's time to go home you have a safe about this big to take 
everything home in, and naturally the intelligence officer is 
going to say, OK, obviously we're not going to take back every 
scrap of paper. So what happens is a lot of these records that 
would show where people were and what happened, etc., they are, 
a lot of times, on electronic media, on hard drives and things 
like that, and a lot of times it's easier to just wipe the hard 
drive and say that way I can pack it in my suitcase and take my 
unclassified stuff with me and not have to put it in the safe, 
rather than take back all that classified data.
    Soldiers and officers, the lieutenant guy, is going to take 
the path of least resistance. If it is easier to wipe a hard 
drive rather than take back data that he is not going to be 
accountable for maintaining over the long run, he's going to do 
it.
    Sergeant Major La Morte. I think certain reports need to be 
made and kept unclassified, and those reports being----
    Mr. Shays. They may need to be declassified?
    Sergeant Major La Morte. Yes. And the other thing----
    Mr. Shays. When you come right down to it, the only people 
hurting by having it classified are people who served.
    Sergeant Major La Morte. Correct.
    The other thing we need to look at, especially in 
Afghanistan, is we are fighting in a warfront that has been 
fought as a chemical war and nothing historically was 
researched before going in there. We don't know where the hot 
spots the Soviets had that we're tripping over. It hasn't 
rained in 17 years in some of those locations, so that 
environment is still there, and we're kicking it up every time 
we drive through it. Everybody would get sick after they do a 
vehicle patrol. So it's there.
    Mr. Shays. You all have been very good here, very helpful 
to us. Is there any last point you want to put on the record? 
Anybody?
    Dr. Crosse, you all set? I appreciate the work of you and 
your colleagues. As always, it is very helpful.
    Anyone else?
    Thank you. Your testimony was quite helpful to us, and we 
thank you for participating.
    We go to our second panel: Dr. Michael Kilpatrick, Deputy 
Director of the Deployment Health Support Directorate, 
Department of Defense, accompanied by Colonel John Ciesla, 
Chief of Staff, U.S. Army Center for Health Promotion and 
Preventive Medicine. And from the VA, Dr. Susan Mather, 
Veterans Health Administration Department of the VA, 
accompanied by Dr. Mark Brown, Director of Environmental Agents 
Service, Department of Veteran Affairs.
    If you would all stand, please. Thank you.
    [Witnesses sworn.]
    Mr. Shays. Note for our record that the witnesses have 
responded in the affirmative.
    Again, I thank you for being here to listen to the first 
panel. You certainly have a privilege to go first, and thank 
you for waiving that privilege. It will make our testimony all 
the more helpful to us, so I thank you for that.
    I think we will hear from two, correct, Dr. Kilpatrick and 
Dr. Mather. I'm sorry. We have the name tags. Colonel, I was 
giving you a doctor; and, Doctor, I was giving you a colonel 
here.
    Thank you, Dr. Kilpatrick.

 STATEMENTS OF DR. MICHAEL KILPATRICK, DEPUTY DIRECTOR OF THE 
 DEPLOYMENT HEALTH SUPPORT DIRECTORATE, DEPARTMENT OF DEFENSE, 
 ACCOMPANIED BY COLONEL JOHN CIESLA, CHIEF OF STAFF, U.S. ARMY 
 CENTER FOR HEALTH PROMOTION AND PREVENTIVE MEDICINE (CHPPM); 
    AND DR. SUSAN MATHER, CHIEF OFFICER, PUBLIC HEALTH AND 
    ENVIRONMENTAL HAZARDS, VETERANS HEALTH ADMINISTRATION, 
DEPARTMENT OF VETERANS AFFAIRS, ACCOMPANIED BY DR. MARK BROWN, 
DIRECTOR, ENVIRONMENTAL AGENTS SERVICE, DEPARTMENT OF VETERANS 
                            AFFAIRS

              STATEMENT OF DR. MICHAEL KILPATRICK

    Dr. Kilpatrick. Mr. Chairman, members of the subcommittee, 
thank you for the opportunity to appear before you today to 
discuss the Department of Defense's deployment occupational and 
environmental hazard health surveillance program, a key 
component of our force health protection.
    My written testimony you have accepted for the record, and 
I thank you for that.
    I certainly appreciate the opportunity to hear the 
testimony of the first panel, particularly the members who have 
served and been in combat. As a former Department of Defense 
medical officer and currently working for the Department of 
Defense in medicine, we have not done our job well if people 
still have concerns and questions about their health. We should 
be able to answer those questions, we should be able to give 
them the right information, and I have learned some things 
today I need to go back and work on how we can fix.
    We are, in the Department of Defense, firmly committed to 
safeguarding the health of our Active and Reserve component 
service members before, during and after deployment. 
Occupational and environmental health surveillance is a key in 
both Operation Iraqi Freedom and Enduring Freedom. We recognize 
the importance of sharing these data with the Department of 
Veteran Affairs, and we're working to make that information 
more available to them.
    The Services, the Joint Staff and the Combatant Commands 
have made substantial progress in addressing deployment health-
related issues with occupational and environmental exposures; 
and then we heard from the panel before, commanders bear this 
responsibility and commanders do what leaders check.
    Medical intelligence provided by the Armed Forces Medical 
Intelligence Center and other sources is used to anticipate 
environmental health hazards; and we have well-trained Army, 
Navy and Air Force medical personnel conducting ongoing in 
theater environmental surveillance, closely monitoring air, 
water, soil, food and disease vectors for health threats. They 
collect baseline data on air, water, soil when base camps are 
established, routine data, following up with air, soil and 
water in those base camps to detect any changes. Then they look 
at incident-related data when we anticipate or expect that 
perhaps there has happened a chemical spill, industrial 
accidents or any illness outbreaks or chemical/biological agent 
exposures. That data is certainly systematically identified, 
documented and archived.
    As you've heard before, the U.S. Army's Center for Health 
Promotion and Preventive Medicine is our main archive center; 
and they have just recently completed a summary report of OIF/
OEF environmental surveillance monitoring data from January 
2003, to April 25. They analyzed nearly 3,900 air, water, soil 
samples taken in 274 locations in Iraq, 28 locations in 
Afghanistan, and several locations in Kuwait and neighboring 
countries. We also have over 1,000 environmental reports that 
were collected in theater and have been sent to the CHPPM for 
that archiving. Again, these environmental health assessments 
give us a very good understanding of what our troops are being 
exposed to while they are deployed.
    Incident-related data, as you heard from the GAO, is 
collected when we believe there is potential contamination with 
a hazardous substance; and when we do that, we identify the 
individuals at risk, testing is accomplished if indicated, 
information is entered into their medical record, and medical 
debriefings are provided.
    One example of this activity is a possible radiation 
exposure threat when the Al-Tuwaitha Nuclear Research Center in 
Iraq was looted during the early days of OIF. DOD performed 
extensive environmental assessments and checked personnel 
radiation levels. We joined with the International Atomic 
Agency, Iraq's Ministry of Health and Iraq's Atomic Energy 
Commission to perform health evaluations of some 4,000 people 
living in five villages surrounding Al-Tuwaitha. The 
assessments found no abnormalities related to radiation.
    We also developed fact sheets for the United States and 
coalition personnel and briefed our service members in town 
hall type meetings. Personnel radiation measurements 
demonstrated that radiation doses to our personnel were within 
acceptable limits, and so we would expect no short- or long-
term health effects.
    During OIF/OEF, we have done extensive environmental and 
medical surveillance for possible depleted uranium exposure. 
The DOD biomonitoring policy, which was redrafted in 2004, 
specifies procedures for identifying personnel possibly exposed 
to DU, assessing their degree of exposure, and following up 
with urine bioassays to document exposure level. We also 
include in that testing of individuals we express a concern 
about exposure or possible exposure to depleted uranium.
    As of last month, we have completed 1,970 samples from 
personnel, 24-hour urine samples. Only six of those have been 
found to be positive for depleted uranium, and all individuals 
were involved in fragment exposure to depleted uranium.
    The staff has also looked at some 450,000 post-deployment 
health assessment forms where our service members are reporting 
their concerns about environmental exposures. The most commonly 
reported concerns were sand or dust, vehicle exhaust and loud 
noise. The least commonly reported concerns were depleted 
uranium and the exposure to radiation. DOD is using these 
results, along with our health risk communication capability, 
to make sure that there is sufficient information available to 
service members, their families, military leaders and health 
care providers to alleviate concerns and anxieties that may be 
produced because of these exposures.
    The Government Accountability Office has identified a 
concern that access to archived environmental surveillance 
reports is limited by their security classification. Please be 
assured that the classification of this data does not hinder 
the Department's ability to ensure the appropriate care of our 
services members for health issues resulting from deployed 
occupational and environmental exposures. We remain committed 
to improving the continuum of care through our force health 
protection program and to educating our military members about 
environmental factors that could affect their health and about 
our preventive measures to safeguard their health.
    Mr. Chairman, I thank you for inviting me here today. I am 
pleased to accept your questions.
    Mr. Shays. Thank you.
    [The prepared statement of Dr. Kilpatrick follows:]
    [GRAPHIC] [TIFF OMITTED] T6238.111
    
    [GRAPHIC] [TIFF OMITTED] T6238.112
    
    [GRAPHIC] [TIFF OMITTED] T6238.113
    
    [GRAPHIC] [TIFF OMITTED] T6238.114
    
    [GRAPHIC] [TIFF OMITTED] T6238.115
    
    [GRAPHIC] [TIFF OMITTED] T6238.116
    
    [GRAPHIC] [TIFF OMITTED] T6238.117
    
    [GRAPHIC] [TIFF OMITTED] T6238.118
    
    [GRAPHIC] [TIFF OMITTED] T6238.119
    
    [GRAPHIC] [TIFF OMITTED] T6238.120
    
    [GRAPHIC] [TIFF OMITTED] T6238.121
    
    [GRAPHIC] [TIFF OMITTED] T6238.122
    
    [GRAPHIC] [TIFF OMITTED] T6238.123
    
    [GRAPHIC] [TIFF OMITTED] T6238.124
    
    [GRAPHIC] [TIFF OMITTED] T6238.125
    
    [GRAPHIC] [TIFF OMITTED] T6238.126
    
    [GRAPHIC] [TIFF OMITTED] T6238.127
    
    [GRAPHIC] [TIFF OMITTED] T6238.128
    
    Mr. Shays. Dr. Mather, let me just throw out a question I'd 
like both of you to think about. I want to get a little bit 
more about the depleted uranium. I want to know if it's more 
dangerous to breathe or if it's particles are on your skin. I'd 
like to know how much information we have about depleted 
uranium. But for the site you're talking about, I think it was 
actually a friendly fire attack; is that accurate?
    Dr. Kilpatrick. The individuals who have fragments were in 
friendly fire, yes. They were in close--and it was actually 
more calling in air support and being very close to where that 
air support fired.
    Mr. Shays. Closer than they should have been, or the fire 
was a little closer? But, anyway, I will get into it in a bit, 
but if you will just know that is an interest there.
    And, Dr. Kilpatrick, you're finished, right?
    Dr. Kilpatrick. I'm finished.

                 STATEMENT OF DR. SUSAN MATHER

    Dr. Mather. Mr. Chairman, thank you for your invitation. 
Thank you for the opportunity to come and talk about VA's 
initiatives in response to the healthcare needs of OIF/OEF 
veterans.
    I am accompanied by Dr. Mark Brown, as you point out, who 
is a VA toxicologist.
    VA's goal is to ensure that every serviceman or woman 
returning from combat has access to world-class services and 
uncomplicated, seamless passage from soldier to citizen. This 
is dependent, in part, upon the seamless transition of a wide 
range of basic data about these new veterans from DOD to VA.
    I am pleased to say that VA and DOD together are finding 
better ways to move this data more efficiently between our two 
Departments. One example is VA's successful development, with 
DOD's assistance, of a roster of men and women who have 
returned from serving in OIF/OEF and then separated from 
military service. Our most recently updated roster of May 17, 
2005, contains 360,674 OIF and OEF veterans who have left 
Active duty, many of whom have sought VA care. We anticipate 
serving 103,000 of these veterans in 2005.
    Besides use in tracking veterans, this roster is also 
invaluable for providing outreach about the benefits they have 
earned.
    I would be remiss, too, if I did not mention that VA's 207 
vet centers also play an important role in outreach. To date, 
VA vet centers have served 18,000 of these new OIF/OEF veterans 
in helping their readjustment in civilian life.
    VA has also been working closely with DOD to identify those 
OIF and OEF veterans who suffer from serious deployment-related 
illnesses or injuries, even before their separation. VA and DOD 
has signed an MOA that will help give VA access to the DOD 
Physical Evaluation Board data base of seriously injured 
service members. This effort is being championed by VA's new 
seamless transition office established last January, which is 
charged with identifying OIF and OEF veterans and insuring 
their priority to VA health care.
    In your invitation to testify today, you asked about how 
occupational and environmental health surveillance collected by 
DOD will be used to address health issues of returning service 
members. We know from previous experience how important it is 
to have credible answers to the questions about possible health 
problems from exposure to environmental and occupational 
hazards during military deployments, so we are pleased to hear 
from DOD about their activities in this area and their 
willingness to share this data with VA in the future.
    DOD described the active environmental surveillance program 
you've heard about today in two briefings to the DOD/VA 
Deployment Health Working Group. VA will use this data to help 
evaluate disability claims and conduct research on long-term 
health effects from military hazardous exposures. It will be 
useful but less important for diagnosing and treating health 
problems.
    For example, an OIF veteran suffering from asthma diagnosis 
and treatment would not depend on whether he was exposed, for 
example, to sulfur dioxide in the sulfur fire at Al Mishraq, 
which Dr. Kilpatrick talked about in his testimony, but the 
treatment would be the same regardless of the cause. On the 
other hand, if that veteran wanted to file a disability claim 
based on a hazardous exposure, then data about his or her 
exposure could be essential to support the claim.
    Similarly, research into whether asthma rates were higher 
among all service members exposed to sulfur dioxide in Al 
Mishraq, Iraq, would need these environmental data.
    I would emphasize that access to what must be an enormous 
amount of raw, uncorrelated environmental surveillance data 
without being able to track it by individual location or other 
means would not be very useful to VA or to the veterans. 
Compiling all this separate data into a useable electronic 
format is essential to making this information useful to the 
VA.
    VA recognizes that making world-class services for veterans 
is only the first step. We must also get the word out to 
veterans and their families about the services they have 
earned. As VA adds names provided by DOD of newly separated OIF 
and OEF veterans to our roster, the Secretary of Veterans 
Affairs mails each a letter welcoming them home, thanking them 
for their service to the country and briefly explaining VA 
programs available. We have significantly expanded our 
collaboration with DOD to enhance outreach to Reservists and 
National Guard, with over 2,000 briefings reaching 135,000 
Reserve and Guard members in 2003 and 2004. This year alone we 
have provided nearly 1,000 briefings.
    Working with DOD, we have developed and distributed over a 
million copies of a new brochure summarizing VA benefits for 
this group of veterans. The VA has also produced a brochure 
addressing major environmental health issues of service members 
in Iraq and a similar brochure for veterans in Afghanistan and 
also for women, and I ask that these information pieces be 
inserted in the record.
    Mr. Shays. Without objection, that will be done.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6238.129
    
    [GRAPHIC] [TIFF OMITTED] T6238.130
    
    [GRAPHIC] [TIFF OMITTED] T6238.131
    
    [GRAPHIC] [TIFF OMITTED] T6238.132
    
    [GRAPHIC] [TIFF OMITTED] T6238.133
    
    [GRAPHIC] [TIFF OMITTED] T6238.134
    
    [GRAPHIC] [TIFF OMITTED] T6238.135
    
    [GRAPHIC] [TIFF OMITTED] T6238.136
    
    [GRAPHIC] [TIFF OMITTED] T6238.137
    
    [GRAPHIC] [TIFF OMITTED] T6238.138
    
    [GRAPHIC] [TIFF OMITTED] T6238.139
    
    [GRAPHIC] [TIFF OMITTED] T6238.140
    
    [GRAPHIC] [TIFF OMITTED] T6238.141
    
    [GRAPHIC] [TIFF OMITTED] T6238.142
    
    [GRAPHIC] [TIFF OMITTED] T6238.143
    
    [GRAPHIC] [TIFF OMITTED] T6238.144
    
    [GRAPHIC] [TIFF OMITTED] T6238.145
    
    [GRAPHIC] [TIFF OMITTED] T6238.146
    
    [GRAPHIC] [TIFF OMITTED] T6238.147
    
    Dr. Mather. The VA has developed a range of training 
materials and other tools for frontline staff through the 
Veterans Health Initiation, as well as evidence-based clinical 
practice guidelines for improving treatment for veterans 
following deployment. We are also developing a clinical 
reminder to providers with specific health screening 
requirements to assure that veterans are appropriately 
evaluated.
    VA and DOD are making progress in systems that will be the 
basis for the transfer of occupational and environmental health 
surveillance information and enable the transfer of pre- and 
post-deployment health assessment data to VA physicians and 
claims examiners.
    I have briefly described how DOD's data on new OIF and OEF 
veterans helps VA provide better services to veterans in many 
different ways. The roster of separated OIF and OEF veterans is 
useful for patient tracking, outreach and future research. We 
clearly look forward to receiving a complete roster of all 
deployed personnel, both separated and those remaining on 
active duty, and the environmental and occupational 
surveillance data that DOD is collecting today in Iraq and 
Afghanistan as soon as it is available in a usable electronic 
format.
    I want to emphasize that service members separating from 
military service and seeking health care from VA today will 
have the benefit of VA's decade-long experience with Gulf war 
health issues, as well as the President's commitment to 
improving collaboration between VA and DOD.
    This concludes my statement. My colleague and I will be 
happy to respond to any questions that you have.
    [The prepared statement of Dr. Mather follows:]
    [GRAPHIC] [TIFF OMITTED] T6238.148
    
    [GRAPHIC] [TIFF OMITTED] T6238.149
    
    [GRAPHIC] [TIFF OMITTED] T6238.150
    
    [GRAPHIC] [TIFF OMITTED] T6238.151
    
    [GRAPHIC] [TIFF OMITTED] T6238.152
    
    [GRAPHIC] [TIFF OMITTED] T6238.153
    
    [GRAPHIC] [TIFF OMITTED] T6238.154
    
    [GRAPHIC] [TIFF OMITTED] T6238.155
    
    [GRAPHIC] [TIFF OMITTED] T6238.156
    
    Mr. Shays. Thank you all very much.
    Dr. Kilpatrick, I would like you to read your testimony on 
page 10 about Al-Samawah and then just then kind of translate 
it for me. It seems we're going to deal with the issue of 
depleted uranium.
    Let me just say that--both Colonel and Dr. Brown, feel free 
to be equal participants in the question and answer--if we ask 
one, feel free to jump in. I know Dr. Kilpatrick and Dr. Mather 
will enjoy your interaction.
    So if you would read this, just the whole education 
session.
    Dr. Kilpatrick. Certainly, sir.
    Al-Samawah, Iraq. Concern about alleged contamination with 
depleted uranium and exposure to toxic chemicals among some 
members of the 442nd Military Police Unit. Extensive 
environmental sampling was accomplished. A classified Navy 
environmental assessment report was written and a follow-on 
Army environmental assessment is being finalized for this rail 
yard, where no combat occurred. No toxic chemicals, with the 
exception of some chemicals contained in a railroad tank car, 
nor depleted uranium were identified. Nevertheless, 167 were 
offered laboratory testing for any depleted uranium exposures; 
66 of those personnel participated in the urine DU bioassay 
testing, and all of them tested in the normal range for total 
uranium levels with no detections of depleted uranium in their 
urine.
    Army medical DU experts met with the 442nd soldiers in 
medical hold at Fort Dix, NJ, in April 2004, and conducted a 
similar meeting with the 442nd Family Support Group in 
Orangeburg, NY, about 2 weeks later. Another group of subject-
matter experts simultaneously met with the main body of the 
442nd in Kuwait and provided information about DU and testing 
and then briefed them again at Fort Dix. Fact sheets on DU and 
DU testing were provided.
    Mr. Shays. Thank you very much. That, from my laymen's 
point of view, seems to me that you all took this very 
seriously----
    Dr. Kilpatrick. Sir, again, to reflect the total accuracy, 
the individuals coming back from theater to Fort Dix, several 
of those individuals expressed concern about depleted uranium, 
and their urine samples were taken for testing. It was some 3 
months before those results were given back to those soldiers; 
and, obviously, in the meanwhile they began to wonder what was 
going on. When it really came to light that there was greater 
concern than just three soldiers, I think the Army stepped up 
in doing the right thing in addressing the concerns of 
individuals and trying to get information to the individuals at 
the time that they were concerned.
    Did that reach every individual? I can't answer that for 
sure because, again, it was who was present when they went to 
give those briefings.
    Mr. Shays. Of the 67 that you tested, the range was normal?
    Dr. Kilpatrick. Of the 66 who were tested, they were tested 
both at the laboratory at the Army Center for Health Promotion 
and Preventive Medicine at the Armed Forces Institute of 
Pathology and at the Centers for Disease Control and Prevention 
[CDC]; and all of those were within what we considered to be 
the normal range of uranium.
    As you earlier said, we all have some uranium in our 
bodies. CDC's national studies says that 95 percent of the 
population has 50 nanograms or less of natural uranium in their 
urine per liter, and that's what we used as our cutoff to refer 
people to the DOD/VA medical followup for completed depleted 
uranium exposure if it's higher than that.
    Mr. Shays. Dr. Mather, my sense is that the VA is a lot 
more capable now of knowing who is going to come in the door. 
After we had hearings on the Gulf war, you really didn't have 
lists of people and so on, but that has changed, hasn't it?
    Dr. Mather. That has changed. Two things that are different 
in this war is that when someone comes in who is an OIF or an 
OEF veteran we know that and we can track them through the 
system; and, also, we have primary care doctors for every 
patient that registers with us so there is someone who is in 
charge of that individual's care through the system. So I think 
we're much better prepared now than we were 10 years ago.
    One of the things that has happened as a result of the 
first Gulf war is setting up the VA/DOD center in Baltimore. I 
think we already have some numbers that show that DOD has 
referred 278 OIF/OEF veterans to the Baltimore DU program, and 
VA providers have referred 118 OIF/OEF veterans to that 
program.
    We've tested a total of 396 veterans and service members. 
Nine had urine uranium levels above background. We can now do 
more specific testing that shows which of this is naturally 
occurring uranium, the uranium that is dug out of the soil, or 
depleted uranium, which is less radioactive than naturally 
occurring uranium; and one of those nine actually had depleted 
uranium in their urine.
    Baltimore's DU program has identified four OIF/OEF veterans 
who have retained DU fragments, and these are the friendly fire 
victims that Dr. Kilpatrick talked about.
    Mr. Shays. Maybe as doctors you can describe to me, what is 
the different impact of inhaling something, swallowing 
something or having it, you know, pretty much embedded in your 
body?
    Dr. Mather. Well, there is no doubt that being embedded is 
the most dangerous, because you're constantly getting fall-off 
from the depleted uranium. We don't know a lot about ingestion 
and inhalation. Of course, you wouldn't recommend that somebody 
have a regular diet containing depleted uranium or be in an air 
space contaminated with that, but very few people are in that 
situation. I don't know of any even in wartime in a tank. It's 
a limited time that you're exposed to that.
    So from the perspective of the specialists in Baltimore, 
the single biggest hazard from the heavy metal is in retrained 
shrapnel. Dr. Kilpatrick might want to expand on that.
    Dr. Kilpatrick. To try to add some more science to it, 
again, the Army Center for Health Promotion and Preventive 
Medicine did the depleted uranium capstones study where in an 
enclosed facility they fired depleted uranium rounds through a 
depleted uranium armored tank. They measured the particles of 
depleted uranium that were released, both inside and outside 
the tank. They looked at the size of those particles, the 
concentration, and they were then able to use models to predict 
inhalation and exposure, both radiological and chemical 
exposure to people. They found that people could be inside a 
tank that had been penetrated for up to 5 minutes without 
having enough of a dose inhaled into their lungs to have any 
medical concern for their future; and I think that's a good 
news story dated from the Gulf war, is that people were out of 
those tanks very quickly when they were hit.
    But, you're right, the inhalation is probably secondary to 
the fragment ingestion. There was a very small amount of 
natural or depleted uranium that would be absorbed. Most of it 
would pass out through the intestine.
    Mr. Shays. But would your body absorb it more through 
digestion, or if it's in your skin does it just permeate 
through your body?
    Dr. Kilpatrick. If it's in your skin, it is essentially 
with your body fluids. It then becomes soluble slowly, and it 
develops levels. This is what we have seen in the Gulf war 
veterans' medical followup study, is if they continue to 
excrete high levels of depleted uranium in their urine and 
their kidneys are functioning perfectly normal, they have 
adapted to that depleted uranium level in their bodies so that 
it gets into the body fluid and is excreted through the kidney. 
And inhalation, a very small amount or an ingestion of a small 
amount, if it does get into the body fluids is excreted very 
quickly through the kidney and is essentially gone.
    Mr. Shays. Colonel, would you like to add anything here?
    Colonel Ciesla. Mr. Chairman, I probably couldn't add much 
to what Dr. Kilpatrick said, other than that it depends upon 
whether you're talking about the chemical toxicity of DU, since 
it's a metal, and the radiological exposure, in which case 
having embedded fragments is the bigger hazard because you keep 
the radiologic source with you and so it's able to continually 
bombard the surrounding tissue.
    But, once again, as Dr. Kilpatrick indicated, people with 
fragments will theoretically present the most severe exposure 
potential, and we have not seen actual health effects that 
resulted from that exposure.
    Mr. Shays. You see, in the reports and studies that the 
military DOD has done on depleted uranium--candidly, we haven't 
spent a lot of time on this--but you have some folks who think 
it's extraordinarily dangerous, I guess, because of the word 
uranium. My sense is that in a vehicle like a tank this heavy 
metal is basically encapsulated--in other words, it's in the--
there is metal on either side of it?
    Colonel Ciesla. Yes, Mr. Chairman. Actually, when you're 
talking about the DU penetrator, if I had one here in front of 
us, it would look like a big artillery shell.
    Mr. Shays. No, I'm talking about the armament.
    Colonel Ciesla. Oh, the external armor, sir?
    Mr. Shays. Yes. So it's low-level radiation, but if it's 
hit and penetrated, then there is the dust, correct?
    Colonel Ciesla. That is correct, sir.
    Mr. Shays. Is there anything between the depleted uranium--
is it encapsulated? Is it covered or coated with something?
    Colonel Ciesla. Yes, sir. It's encoated with an epoxy 
resin, some of which is the actual paint they use to cover the 
exterior of the tank. The actual turret of a Bradley or an M-1, 
the exterior surfaces that are armored, have depleted uranium 
literally incorporated into the metal that comprise the turret. 
Inside and outside--there is what we call chemical agent 
resistant coating on the outside, which is the colors you see 
outside of the tank at Bradley, and then inside there is an 
epoxy resin paint, usually a light green or very light color to 
give it some illumination. So that's between it, sir.
    Mr. Shays. If I was in the military I would want the best 
protection I could get. But I would--going back to our old 
hearings, I mean, we had people who would go into these tanks 
days later and describe the dust around. They weren't told it 
wasn't a great idea, but I'm sure they were told this time.
    Let me say that we have votes, but I am not going to hold 
you up afterwards. Let me have the professional staff ask a few 
questions that we need to get on the record.
    Ms. Fiorentino. Dr. Kilpatrick, I wanted to followup with 
some more questions about the follow-on Army environmental 
assessment that's being finalized. What are the findings of 
that environmental assessment and why is that not finalized 
yet?
    Dr. Kilpatrick. That assessment is in the final draft. In 
fact, I have the report as going through the Army chop chain, 
so that I think that all the data are there.
    What it does show that was not in any of the testimony that 
I had here, because I got a copy of it this morning to take a 
look at, is that there was, in fact, an armored vehicle that 
appeared to have been penetrated by depleted uranium on a 
flatbed on a train track some 150 meters away from the housing 
area where individuals were. There was indication of depleted 
uranium at the penetration hole on the vehicle itself.
    There were some wipes taken at that area that gave an 
indication of depleted uranium. But other wipes on the vehicle 
or on the car, air samples taken around the car were all 
negative for any indication for depleted uranium, as were all 
other sampling in that entire area.
    As you heard described, there were a lot of oils and paints 
and grease, the pigeon droppings, a lot of other issues were 
present in that environment, but as far as a radiological 
hazard, it was only on that armed vehicle on that flatbed.
    Ms. Fiorentino. Does DOD routinely test for DU at all 
military bases or forward-operating bases?
    Dr. Kilpatrick. If you're asking do we routinely ask people 
coming back from deployment, that is one of the questions on 
the post-deployment health assessment that we ask: Do you have 
a concern about exposure to depleted uranium?
    If an individual answers yes to that question, they should 
have a conversation with an expert to say what was your 
exposure, what is your concern. If it was, I was loading 
ammunition and I washed my hands after loading it, then we say 
you really don't need to worry. If it was, I was nearby where 
friendly fire came in, then we would say, yes, you do need; and 
then we refer them on to have a 24-hour urine sample collected. 
That can be collected anywhere but can only be tested at the 
CHPPM Center, at the Armed Forces Institute of Pathology or at 
CDC, are the three laboratories that we use that are certified 
to do tests on human samples.
    Ms. Fiorentino. When will the OHS data be compiled into a 
usable data base for VA researchers to use, and who is going to 
be responsible for compiling that data?
    Dr. Kilpatrick. That is probably a question that I would 
have to give you a subjective swag on. The data, as you know, 
are being archived at CHPPM. We are working to develop a system 
or process to analyze that data. Obviously, its location of 
where it is collected at present, as you heard from Dr. Mather, 
just getting a large dump of data is not going to help the VA. 
They're going to have to be able have it location-specific and 
then ideally located to where people are.
    And if you want to add something to that before I go on--
let me just add part of the answer to your question depends on 
who is asking, because I would say it is available now.
    With all of the data that we are accumulating, if they ask 
us for a unit and location, people and location, there is a 
classification that the subcommittee is well aware of; and that 
is an issue, to be sure. But if you said to me, can you tell 
what this individual was exposed to because they were in this 
general location and you just establish the link there, that is 
an answer we can provide right now.
    In fact, a lot of OEHS surveillance information is 
available right now in that form. It is just a matter of asking 
for it.
    Mr. Shays. We have a choice of going on afterwards, and I 
don't think we are going to do that. So we are going to cut 
this hearing off. There are probably some things that we should 
have put on the record that we may need to do by written 
request.
    Dr. Brown, is there any comment that you want to make 
before we adjourn this hearing?
    Dr. Brown. One of the things that I think was just hinted 
at a little bit here but I think was very important at this 
hearing that came out was the aspect of risk communication 
about some of these hazards. Dr. Mather described very well our 
DU program that we run at Baltimore that we opened up for the 
1991 Gulf war to monitor depleted uranium in--for example, do 
urine samples of veterans who were concerned about how depleted 
uranium may have affected their health. One of the critical 
things that they found that they had to do there was they had 
to develop risk communication to be able to talk to the 
individuals who asked for the tests.
    So when you explain when somebody gets a number--we heard 
earlier a veteran describe a number he got in the mail from one 
of these tests--and the group found that is not adequate. This 
is unusual. It is a type of exposure. It is frightening because 
you're talking about radioactivity, you're talking about heavy 
metal toxicity, and doing the background work that you need to 
do to explain that to a patient is absolutely critical. This is 
something that the VA program has done an outstanding job in 
developing the means to explain what that number means to 
somebody's health.
    Mr. Shays. Thank you.
    Let me say I have 5 minutes until the machine closes.
    Given that we have been wrestling with these issues for 
more than 12 years, I have seen noticeable improvement in the 
attitude of both DOD and the Department of Veterans' Affairs. I 
like the fact that there is an Office of Deployment Health 
Support Directorate. That is a good thing.
    So I compliment both DOD and the VA on working to just make 
improvements. I know you know we have a ways to go. But thank 
you for your good work and thank you for the progress that we 
have made. Thank you.
    With this, the hearing is adjourned.
    [Whereupon, at 1:05 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T6238.157

[GRAPHIC] [TIFF OMITTED] T6238.158

[GRAPHIC] [TIFF OMITTED] T6238.159

[GRAPHIC] [TIFF OMITTED] T6238.160

[GRAPHIC] [TIFF OMITTED] T6238.161

[GRAPHIC] [TIFF OMITTED] T6238.162

[GRAPHIC] [TIFF OMITTED] T6238.163

[GRAPHIC] [TIFF OMITTED] T6238.164

[GRAPHIC] [TIFF OMITTED] T6238.165

[GRAPHIC] [TIFF OMITTED] T6238.166

[GRAPHIC] [TIFF OMITTED] T6238.167

[GRAPHIC] [TIFF OMITTED] T6238.168

[GRAPHIC] [TIFF OMITTED] T6238.169

[GRAPHIC] [TIFF OMITTED] T6238.170

[GRAPHIC] [TIFF OMITTED] T6238.171

[GRAPHIC] [TIFF OMITTED] T6238.172

[GRAPHIC] [TIFF OMITTED] T6238.173

                                 <all>
</pre></body></html>
